<html>
<title> - THE FUTURE OF THE NATIONAL MALL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                            THE FUTURE OF 
                           THE NATIONAL MALL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 20, 2008

                               __________

                           Serial No. 110-71

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
42-475 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington               Robert J. Wittman, Virginia
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio


                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 20, 2008............................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Akridge, John E. ``Chip,'' III, Chairman, Trust for the 
      National Mall..............................................    41
        Prepared statement of....................................    43
    Cogbill, John V., III, Chairman, National Capital Planning 
      Commission.................................................    17
        Prepared statement of....................................    19
    Feldman, Judy Scott, Ph.D., President, National Coalition to 
      Save Our Mall..............................................    33
        Prepared statement of....................................    35
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia.......................................     2
        Prepared statement of....................................     4
    O'Dell, Margaret, Superintendent, National Mall and Memorial 
      Parks, National Park Service, U.S. Department of the 
      Interior...................................................     6
        Prepared statement of....................................     8
    Spitzer, Arthur B., Legal Director, American Civil Liberties 
      Union of the National Capital Area.........................    29
        Prepared statement of....................................    30
    Tregoning, Harriet, Director, Office of Planning, Government 
      of the District of Columbia................................    12
        Prepared statement of....................................    14


        OVERSIGHT HEARING ON ``THE FUTURE OF THE NATIONAL MALL''

                              ----------                              


                         Tuesday, May 20, 2008

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1334, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Kildee, Holt, 
Brown, Sarbanes, and Inslee.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. The Subcommittee on 
National Parks, Forests, and Public Lands will come to order. 
The agenda today and the hearing is about the future of the 
National Mall.
    Let me, at the outset, welcome all of you here. Thank you. 
As this meeting comes to order and Memorial Day approaches, it 
is fitting that we are holding this hearing on the future of 
the National Mall, while we pause to remember the American 
heroes who gave the last full measure of devotion. The war 
memorials of World War I, II, Korea, and Vietnam will be on the 
minds of all Americans.
    Also on our minds will be the words and deeds of those 
great Americans who have transcended their individual 
accomplishments to become institutions unto themselves: 
Washington, Jefferson, Lincoln, Roosevelt.
    Recently, the National Mall was named one of the seven 
wonders of America. But it is more than just a wonder. The 
National Mall is part of our national identity and serves as 
our national front yard. Its appearance reflects our collective 
pride as Americans.
    We can hope that the Mall's memorials, museums, and open 
space will inspire visitors and future generations of Americans 
to their own greatness. But these hopes will not be realized if 
the condition of the Mall fails to inspire.
    This is a critical time in the history of the National 
Mall. Currently, four different entities are in the midst of 
planning efforts that will directly impact the Mall, in some 
cases over the next 50 years or more. And with such an 
important and visible symbol of America at stake, it is 
important that these groups and all others interested and 
affected work together collaboratively to get the planning job 
done correctly.
    I am pleased to have Congressman Eleanor Holmes Norton. She 
has joined us today to share her thoughts and concerns for 
these various plans. And I look forward to her joining us on 
the dais after her testimony and being part of this hearing.
    I am also pleased to welcome the National Park Service, the 
National Capital Planning Commission, the Government of the 
District of Columbia, and several advocacy groups to this 
hearing to share their collective vision for the Mall.
    We thank the witnesses very much for their time and effort 
to be here today. And with that, let me turn to our 
distinguished colleague, Ms. Norton, for her testimony.
    Welcome. Thank you.
    [The prepared statement of Mr. Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    As Memorial Day approaches, it is fitting that we are holding this 
hearing on the ``Future of the National Mall.'' While we pause to 
remember the American heroes who gave the ``last full measure of 
devotion,'' the war memorials for World Wars I and II, Korea and 
Vietnam will be on the minds of all Americans. Also on our minds will 
be the words and deeds of those great Americans who have transcended 
their individual accomplishments to become institutions unto 
themselves--Washington, Jefferson, Lincoln, Roosevelt.
    Recently, the National Mall was named one of the seven wonders of 
America--but it is more than just a wonder. The National Mall is part 
of our national identity and serves as our national front yard--its 
appearance reflects our collective pride as Americans. We can hope that 
the Mall's memorials, museums and open space will inspire visitors and 
future generations of Americans to greatness of their own. But these 
hopes will not be realized if the condition of the Mall fails to 
inspire.
    This is a critical time in the history of the National Mall. 
Currently, four different entities are in the midst of planning efforts 
that will directly impact the Mall, in some cases for the next fifty 
years or more. And with such an important and visible symbol of America 
at stake, it is important that these groups and all other interested 
and affected parties work collaboratively to get the planning job done 
correctly.
    I am pleased that Congresswoman Eleanor Holmes Norton has joined us 
today to share her thoughts and concerns for these various plans and I 
look forward to her joining us on the dais after providing her 
testimony. I am also pleased to welcome the National Park Service, the 
National Capitol Planning Commission, the Government of the District of 
Columbia and several advocacy groups to this hearing to share their 
collective vision for the Mall. We thank the witnesses very much for 
their time and effort to be here today.
    I would now like to recognize Ranking Member Bishop for any opening 
statement he may have.
                                 ______
                                 

STATEMENT OF THE HONORABLE ELEANOR HOLMES NORTON, A DELEGATE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Chairman Grijalva. I very 
much appreciate your holding this hearing today. This hearing 
will seem like the time to many who follow the work on the 
Mall, because it is the first time that there has been a 
hearing on the National Mall in memory of this now two-mile 
strip, which we hope to see expanded 700 acres.
    Twenty million people come. They have all heard of the 
National Mall, and when they go there, what they see we all 
should be ashamed of. It is a barren, dull place where they mow 
the lawn, and nothing else. It is essentially a passthrough.
    For more than a dozen years I have been trying to improve 
the Mall. Your hearing is especially valuable to us in drawing 
attention to the place where essentially the constituents of 
Members of Congress come. So the 20 million people who come, 
some of them are my constituents, but most of them are 
constituents of my colleagues. And so your title here, the 
Future of the Mall, I think encompasses what we need to focus 
on.
    I have my own view. I appreciate, I would very much 
appreciate that if we could move from this hearing to a markup 
of the Mall Revitalization and Redesignation Act. What it does 
is simply codify what you will hear from the National Planning 
Commission on its framework. It has been working on it now for 
a couple of years so that they would have the ability to expand 
the Mall.
    We are not simply talking about this two-mile place. They 
already, indeed, have allowed memorials to go into the far 
reaches of what is not considered the Mall, but the Mall 
doesn't have an official designation. My bill for the first 
time would name the Mall, and it would give the NCPC the 
capacity to designate and expand what the Mall is so that when, 
in fact, people come and you want them to go where we now call 
the Mall, they will understand that is a part of the Mall, 
because we really don't have anything named for monuments and 
the like in the Mall, and you can't even get on the Mall, or 
what we call the Mall today, without an Act of Congress.
    This is our most treasured and best-known site perhaps, but 
no site is more neglected, no site is more undervalued.
    Mr. Chairman, I want to focus, since the National Capital 
Planning Commission and the other agencies are here, I am going 
to focus on the part of my bill that I think would be easiest 
to implement.
    I think we have to deal with the disgrace that the Mall is 
right now, so the second part of my bill is a low-cost way to 
make the Mall people-friendly. I introduced the bill after some 
jazz musicians were with me so that people could see that there 
was lots of free entertainment. They would come during 
lunchtime and during the evenings so that people could be 
sitting at decent tables, no hard benches. Low-cost tables, 
free entertainment from string quartets to poetry readings, to 
have lunch in the open with no real fast food.
    But I have focused on this near-term way, knowing full well 
that the total makeover that the Mall deserves is many years 
away, given the PAYGO Rules, given the many priorities of the 
Congress. This is a low-cost way to make the Mall into 
something that is not essentially a disgrace.
    Mr. Chairman, today it is raining. For the visitors who 
would come here, there is no shelter in the Mall. You had 
better hope that one of the museums is open. And the terrible 
humidity of Washington which will soon be upon us, don't look 
for shade unless you can find a tree, which of course you will 
not always find, and hope for a bench under that tree.
    I mean, these are the kind of amenities. And I do not need 
to say that you had better hope that the museums are open if 
you have to use the restroom.
    Here is a place that we grandly call the Mall, and there 
are no amenities, no identity, though we give it an official 
identity, no names whatsoever. There is no great national park 
that suffers from this kind of neglect.
    So Mr. Chairman, I am asking that we move forward with my 
bill. My bill codifies what you will hear from the National 
Capital Planning Commission. I worked closely with them in 
designing that part of the bill.
    And the second part of the bill tries to rescue the Mall 
from the neglect that I think our constituents would be 
surprised to see when they came here, because it takes the 
first steps to give the Mall its due after decades of neglect 
and indifference. It tries to breathe life into the Mall at 
virtually no cost to the taxpayers.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Norton follows:]

           Statement of The Honorable Eleanor Holmes Norton, 
          a Delegate in Congress from the District of Columbia

    I am very grateful to you Mr. Chairman and to the subcommittee for 
this hearing, the first we have had on the two-mile 700 acre strip of 
land, informally called the Mall, since I began working to improve the 
National Mall a dozen years ago. Because it is in my district, I have 
taken a special interest in the Mall and have introduced several Mall 
and Mall-related bills that I am seeking to move forward to passage. 
This hearing entitled ``The Future of the Mall'' relates particularly 
to the Mall Revitalization and Redesignation Act that I introduced in 
October 2007. I am requesting that the subcommittee mark-up this low-
cost bill at an early mark-up. In addition, I have introduced two bills 
necessary for the Smithsonian Institution. As you know the majority of 
Smithsonian museums have the Mall as their front yard, and will play an 
integral role in increasing the life and vitality on the Mall. In fact, 
the Smithsonian's Jazz in the Sculpture Garden is a prototype of the 
lively performing art I would like to see more of throughout the Mall. 
H.R. 4098, The Smithsonian Modernization Act, would bring the 
Smithsonian into this century by giving it a governing board that meets 
modern standards and whose members are free and equipped to raise 
urgently needed funds. H.R. 5424, The Smithsonian Free Admission Act, 
is important to preserve the long-standing requirements and tradition 
of access to Smithsonian museums and exhibits without admission 
charges.
    The National Mall is one of the nation's best known and most 
treasured sites, and it is also Washington's most neglected and 
undervalued. The Mall lacks everything that a majestic natural wonder 
deserves, from an official identity to necessary amenities. My bill: 
(1) authorizes the National Capital Planning Commission (NCPC) to 
officially designate and expand the boundaries of the Mall, and (2) 
requires the Secretary of the Interior to submit a plan to enhance 
visitor enjoyment and cultural experiences within 180 days of passage 
of the bill. I worked closely with NCPC and other agencies in framing 
the Mall designation and expansion section of the bill, in keeping with 
its National Capital Framework Plan. However, H.R. 3880 would not only 
give the NCPC the responsibility for designating and expanding the 
Mall, it also would meet the vision of many of us and of the District 
of Columbia for an expanding Mall to specific, named sites. The bill 
gives the NCPC the necessary flexibility to both expand and designate 
the Mall area, as appropriate, for the first time since its creation
    Let me begin with the section of my bill that is easiest to 
implement now. The twenty million visitors annually to the Mall should 
not have to wait for the long term makeover of the Mall it must have 
before it becomes more than a mowed but battered lawn bereft of even 
restrooms. H.R. 3880 requires near-term action now to erase barren and 
disgrace of today's Mall and make it people-friendly. I introduced the 
bill on the Mall with world class musicians playing jazz to help make 
the point that tourists and workers downtown should be able to walk to 
the Mall and hear terrific music, or have other appropriate, free 
entertainment--from string quartets to poetry readings--perhaps during 
lunch at attractive tables where sandwiches and good--not fast--food 
are available. Although bordered by internationally famous cultural 
institutions, the Mall itself has been reduced to a lawn with a few--
too few--ordinary benches and a couple of fast food restaurants. In 
writing this bill, I was compelled to recognize today's reality that 
funds to make the Mall the 21st century destination it deserves to 
become are simply not available, and will not become available until 
the deficit and other priorities make room. The Mall needs, and must 
get, a total makeover for the 21st century that would be worthy of 
L'Enfant vision for the city he planned and the MacMillan plan that is 
largely responsible for the space between the Capitol and the Lincoln 
Memorial. However, preparing for the future must not stand in the way 
of moving now to begin to do what we can to rescue this space from its 
present condition, damaged by heavy use and often no more than a pass-
through, despite its magnificent potential.
    With the necessary imagination, a plan to make the Mall an inviting 
place with cultural and other amenities envisioned by the bill is 
achievable now. What I have envisioned in H.R. 3880 would do no more 
than make the Mall presentable and pleasant for visitors. At very 
little cost, the Mall would no longer lack the most basic amenities 
appropriate to such an area including restrooms, shelter and informal 
places to gather and interesting places to eat. Today, when it rains, 
there are no places to stay dry on the Mall and when the humidity 
reaches sky high, there are few places to rest and have a cold drink. 
These are disgraceful conditions for a place that is grandly called 
``The National Mall.'' The NCPC is already working on the other section 
of my bill's requirements for an expansive 21st century definition of 
the Mall. Frustrated at continually fighting off proposals for new 
monuments, museums, and memorials, on the crowded Mall space, I asked 
the NCPC to devise a mall presentation, and in 2003, Congress amended 
the Commemorative Works Act to enact the NCPC's designation of a no-
build-zone where no new memorials may be built without an act of 
Congress. This action was helpful in quelling some but by no means all 
of the demand from groups for placement on what they view as the Mall.
    Recognizing the need for more sites, the NCPC and other federal 
agencies have been devising a National Capital Framework Plan that has 
already identified sites near the Mall which are suitable for new 
memorials, including East Potomac Park, a part of the Mall area that is 
seldom visited or viewed as integral to the more familiar space between 
the Capitol and the Lincoln Memorial; Banneker Overlook, the grounds 
around RFK Stadium, the Kennedy Center Plaza site and the new South 
Capitol gateways. Five new prestigious memorials are scheduled for such 
sites, including the Eisenhower Memorial and the U.S. Air Force 
Memorial.
    Just as important, residents of the city region and should be able 
to find expanded space for fun and games beyond the cramped space 
between Third street and the Lincoln Memorial. I appreciate that NCPC 
works closely with the District of Columbia in designating off-Mall 
sites for new monuments, but the country needs to understand that these 
are not off-Mall, but part of the official Mall, as my bill would make 
clear. The District has long welcomed the expanded Mall into our 
neighborhoods, enhancing the work of the District of Columbia 
government and local organizations, such as Cultural Tourism that 
offers historic tours of District neighborhoods and all the while, 
helping to develop local tourism that is vital to the city's economy. 
The off-Mall sites for monuments complement the creation of entire new 
neighborhoods now underway near the Mall, particularly the District's 
re-development of the Southwest waterfront and my own SE Federal Center 
legislation, now taking shape as The Yards, a mixed use public private 
development and waterfront park.
    The Mall Revitalization and Designation Act is the first step in an 
effort to finally focus the Congress on the necessary steps to give the 
Mall its due after decades of neglect and indifference. H.R. 3880 
begins at the beginning--defining officially for the first time what we 
mean by the Mall, allowing for expansion of its natural contours, and 
taking the first steps to breathe life into a space that is meant for 
people to enjoy.
                                 ______
                                 
    Mr. Grijalva. Thank you, Congresswoman. And one of the 
ironies today I think the staff would just tell me, they were 
debating this hearing to be held here or to be held on the 
Mall. And sometimes you are better lucky than good, because it 
is raining today.
    Let me turn to our Ranking Member, Mr. Bishop, for any 
comments he may have. No? OK.
    And I personally have no questions. And like I stated 
earlier, I would be pleased if you would join us at the dais 
for the rest of the hearing. And let me turn to Mr. Bishop if 
he has any questions.
    Mr. Bishop. Just thank you for your presence. I will waive 
any questions.
    Mr. Grijalva. Mr. Holt.
    Mr. Holt. Mr. Chairman, I would just like to thank our 
colleague for the diligence with which she looks after not just 
the people of the District of Columbia, the nation's capitol, 
but also the appearance of our nation's capitol. And I thank 
you.
    Mr. Grijalva. Thank you very much. And we will be pleased 
if you would join us at the dais.
    Ms. Norton. Thank you, Mr. Chairman. And I thank you 
especially for your generosity in inviting me to sit with you 
in Subcommittee today.
    Mr. Grijalva. Let me now welcome the second panel, please.
    [Pause.]
    Mr. Grijalva. Thank you very much. Now we will welcome the 
second panel, and begin with Ms. Peggy O'Dell, Superintendent, 
National Mall and Memorial Parks, National Park Service, 
Department of the Interior.
    Superintendent, welcome. And I look forward to your 
testimony.

 STATEMENT OF PEGGY O'DELL, SUPERINTENDENT, NATIONAL MALL AND 
   MEMORIAL PARKS, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. O'Dell. Good morning, Mr. Chairman. Thank you, Mr. 
Bishop and members of the committee.
    I am Peggy O'Dell; I am the Superintendent of the National 
Mall and Memorial Parks, and I have been with the National Mall 
for six months now, just having arrived from my previous 
assignment in St. Louis. It is an honor to be joining the 
National Mall during this critical time of National Mall 
planning.
    The National Mall planning process began in July of 2006, 
and it has been a very highly collaborative process. The 
planning team consists of Park staff and representatives from 
19 cooperating agencies, such as GSA, the Smithsonian, the 
Architect of the Capitol, and representatives of my panel 
members, NCPC and the DC Department of Planning.
    Several public comment periods and public meetings have 
been held at each step of the planning process, as well as 
online opportunities to track the plan and to comment by email.
    The first newsletter and the scoping process generated 
5,000 comments from the public, which told the National Park 
Service what the public wanted to see for the future of the 
National Mall. It fell into four major categories.
    They wanted to see us improve the overall appearance of the 
National Mall. They wanted us to provide better signage. They 
want more and cleaner restrooms. And they want better variety 
in visitor facilities, such as food and beverage.
    The second newsletter summarized this public comment that 
was received during scoping, and identified planning principles 
that were developed by the Park staff and cooperating agencies.
    The third newsletter described a no-action alternative and 
three draft alternatives. We asked the public to tell us how 
they would mix and match elements from each of the three draft 
alternatives to complete a picture of the next vision for the 
National Mall.
    Those three draft alternatives were focused on major 
categories of use that goes on at the National Mall and needs 
to be continued, focused on historic landscape and education. 
The second alternative focused on a welcoming civic space for 
gatherings and events and high-use levels. And the third 
alternative focused on open space, urban ecology, recreation, 
and healthy lifestyles.
    Twenty thousand comments were received after those 
alternatives were released, and it reinforced the need for the 
National Mall to remain a premiere site for First Amendment 
activities, and it identified the elements of each one of the 
alternatives that the public viewed as important to see as part 
of the final-draft alternative National Mall plan.
    The planning team is currently working through a process to 
draft a preferred alternative, taking into consideration all of 
the public comment that we have had and all of the research 
that has gone into looking at similar sites around the country 
and the world. We anticipate producing a draft preferred 
alternative and a draft environmental impact statement this 
year, the goal, of course, being that the National Mall set a 
standard for excellence for public spaces.
    Transportation for the National Mall is a separate planning 
effort that began prior to the National Mall plan, but we see 
it eventually becoming a part of the overall vision for the 
National Mall.
    Many improvements have been made in operations and 
management in the park as this planning process has progressed. 
We have examined best practices and management standards for 
similar sites around the country and the world. We have 
completed inventory and condition assessments of site 
furnishings and plant materials. We have conducted cultural 
landscape inventories. We conducted an assessment of the 2007 
Cherry Blossom Festival and the Fourth of July celebration so 
that we can make improvements for the 2008 festivals.
    We are involved in solid waste and recycling studies, and 
demonstration projects for recycling are underway. We also have 
a turf management demonstration project that is underway in the 
grass panels from Third Street to Seventh Street.
    We are also very fortunate to have received the Centennial 
Challenge Project for the National Mall. With the generous 
contribution from the Trust for the National Mall and the 
Congressional appropriation, we will be able to improve signage 
on the National Mall for park visitors.
    We also have received 41 additional seasonal employees as a 
result of the Centennial funding, and that will result in 
cleaner restrooms, more frequent trash pickup, and more rangers 
to interact with the public on a daily basis.
    Chairman Grijalva and Mr. Bishop and all committee members, 
as a member of the National Park Service, I would like to thank 
you for your support for that Centennial initiative. It is 
going to make a big difference for visitors in this park this 
summer, and we are very excited to see that happen.
    This concludes my oral presentation this morning. I would 
like to submit my full testimony for the record. I am very 
happy to answer any questions that you might have.
    [The prepared statement of Ms. O'Dell follows:]

Statement of Margaret O'Dell, Superintendent, National Mall & Memorial 
     Parks, National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the subcommittee, it is my pleasure to 
appear before you today to discuss the future of the National Mall and 
the planning efforts underway with our National Mall Plan.
    The National Mall--the great swath of green in the middle of our 
capital city and stretching from the foot of the United States Capitol 
to the Potomac River--is America's civic stage. For more than 200 years 
it has symbolized our nation and its democratic values, which have 
inspired the world. ``We the People'' come here to celebrate our rights 
and freedoms, our history and culture, our unity and diversity, and our 
way of life.
    The origins of the National Mall are as old as the capital city 
itself. The open space and parklands envisioned by Pierre L'Enfant's 
plan, which was commissioned by President George Washington, created an 
ideal stage for national expression of commemoration, remembrance, 
celebration, observance and public assembly. The National Mall and its 
grounds are of great historic significance and interest. The National 
Mall contains some of the oldest protected park lands in the National 
Park Service dating from the 1790's.
    At the beginning of the 20th century in response to increasing 
development that was diminishing the character of this public space, 
Congress created the McMillan Park Commission to produce a plan for the 
Nation's Capital which would recall L'Enfant's formal design and 
protect the heart of the Nation's Capital. The McMillan Plan restored 
the National Mall's historic sweep and framed it with impressive 
museums and monuments that today celebrate our nation's achievements, 
heroes and most significant events.
    The National Park Service (NPS) was given the responsibility for 
management of the National Mall by the Act of March 3, 1933 and 
Executive Order 6166 (1933), which transferred oversight of all Federal 
parkland in the District of Columbia to the NPS. The National Mall 
extends from the grounds of the United States Capitol west to the 
Potomac River, and from the Jefferson Memorial north to Constitution 
Avenue. Over the years there have been varying definitions of the 
National Mall, some due to differences in the actual land mass. This 
boundary definition is the commonly accepted one and is used by the 
NPS. It is home to the great symbols of our country--national icons 
such as the Washington Monument, the Lincoln Memorial and the Jefferson 
Memorial. It also includes the Vietnam Veterans, Korean War Veterans 
and World War I and II Memorials, as well as lesser known memorials to 
American heroes, such as the 56 Signers of the Declaration of 
Independence and John Paul Jones. The National Mall also boasts 
beautiful open spaces such as the Tidal Basin where the blossoming of 
thousands of cherry trees heralds spring.
Present and Future Uses of the Mall
    Millions of people visit the National Mall each year. The National 
Mall must function efficiently and flexibly at many levels--as the 
highly symbolic visual setting for our government; as part of the 
city's circulation and transportation networks; as the location of the 
nation's primary memorials and museums; and as the stage for national, 
regional, and local events and activities including organized sports 
such as softball and other recreation for city residents.
    The demands on the National Mall are constant and wide-ranging. 
Each year there are over 3,000 applications for public gathering 
permits, resulting in more than 14,000 event-days. These events include 
public demonstrations in connection with First Amendment rights; annual 
celebrations such as the National Cherry Blossom Festival, Veterans 
Day, Memorial Day, Presidential memorial birthday celebrations, the 
Smithsonian Institution American Folklife Festival, Black Family 
Reunion, and the National Fourth of July Celebration; concerts and 
cultural programs; hundreds of events such as solar technology 
displays, book fairs, public employee recognition events, the laying of 
commemorative wreaths, reenlistment ceremonies, weddings, school group 
musical performances, as well as one-time events such as state funerals 
or home building displays for Hurricane Katrina victims; annual 
marathons and races benefiting various causes, and hundreds of 
recreational league sports. We want people to use and enjoy the Mall. 
These activities are appropriate and encouraged. Yet, the resulting 
wear and tear damages trees and turf, creates a less-than-desirable 
appearance of the historic landscape, and provides continual 
maintenance challenges.
    The message our visiting public is sending is clear. The value and 
fundamental purposes of the National Mall are clear. It is the symbol 
of our nation and its values; it is an essential location for First 
Amendment demonstrations; and it is an American pilgrimage destination 
where people come to understand our history, culture, heroes, values 
and way of life. In safeguarding the opportunities to participate in 
this history and to express a voice under the First Amendment, it is 
the NPS's responsibility also to manage the National Mall in a way that 
can respond to increased visitation and use and accommodate suggested 
improvements such as improved health of the landscape and grounds, and 
improvements to restrooms, food services, bicycle facilities, and 
signs/maps.
Status of the National Mall Plan
    The great public open spaces of the Nation's Capital are managed 
primarily by the NPS through National Mall & Memorial Parks, a unit of 
the National Park System, an area of approximately 650 acres. A current 
management plan does not exist for this area, which contains 
concentrations of our nation's memorials, cultural treasures and 
museums. The NPS is currently engaged in developing a National Mall 
Plan to guide its activities through the coming years.
    The National Mall Plan is a long-range vision plan focused on 
improvements related to public use, health, appearance and preservation 
of the historic National Mall and Pennsylvania Avenue National Historic 
Site. The planning process involves significant participation by 
approximately twenty cooperating agencies with review, jurisdictional 
or operating authority within the study area. Robust civic engagement 
will continue to ensure all Americans are provided with information and 
the opportunity to participate in planning a revitalized and more 
beautiful future for our nation's grand and symbolic civic spaces. The 
NPS has held a series of cooperating agency workshops leading to the 
development of alternatives and has held public meetings to discuss the 
alternatives. These meetings and additional development work will lead 
to issuing a Draft Environmental Impact Statement this year. A Final 
Environmental Impact Statement should be released by the middle of 
2009. The consultation process pursuant to Section 106 of the National 
Historic Preservation Act is also underway with more than 30 consulting 
parties involved.
    The National Mall Plan will provide the vision for a significant 
private/public partnership to restore the National Mall. This process 
has already begun. The NPS and our authorized fundraising partner, the 
Trust for the National Mall, are working together to begin improving 
signs and wayfinding in the National Mall, one of the first approved 
Centennial Initiative projects. The NPS has developed two public 
engagement video products, using donations by project media partner 
Discovery Communications.
    The vision plan will be formed by continual conversation with 
others in order to address management standards and best practices in 
standards of care, turf/tree management, benchmark standards, and 
events management. A number of NPS or consultant studies have been 
completed or are underway to provide information for planning, with 
some of the findings already translating into action. The following 
studies have been completed:
    <bullet>  Local and National/International Best Practices studies 
for managing heavily used and historic landscapes and related Turfgrass 
Management.
    <bullet>  Inventory and Condition Assessment: Site Furnishings and 
Plant Materials
    <bullet>  Cultural Landscape Inventories: the Mall, Union Square, 
Constitution Gardens
    <bullet>  Public Scoping Comments Report
    <bullet>  Events Assessments--2007 National Cherry Blossom Festival 
and 2007 Independence Day
    <bullet>  White papers--History, Legal Considerations, Issues and 
Objectives of Planning, Glossary
    Additionally, the following three studies are currently underway:
    <bullet>  Solid waste and recycling studies and demonstrations 
projects
    <bullet>  Turf management demonstration projects
    <bullet>  National Mall Plan standards for landscape and 
maintenance
    Some of the cooperating agencies, the Architect of the Capitol, the 
District of Columbia Office of Planning, the U.S. Commission of Fine 
Arts, the National Capital Planning Commission, and the NPS, have 
published a brochure, Planning Together for Central Washington, on 
coordinated vision plans, common objectives and priorities. Some of 
these partners also have planning and projects underway.
Public Participation
    The scoping process began with a symposium, scoping newsletter and 
public meetings. During the four-month public comment period, 5,000 
comments were received. They came in from every state in the union. 
Scoping typically generates far fewer comments. A second newsletter 
summarized public comment and included planning principles developed by 
the cooperating agencies. When it was determined that the plan needed 
to include an Environmental Impact Statement, additional public 
meetings were held. There continues to be good media announcement of 
public meetings. Public comment helped cooperating agencies and the NPS 
develop a range of alternatives. Highlights were shared with the public 
in an alternatives newsletter and additional public meetings were held.
    The NPS has provided extensive public information regarding this 
planning process--Federal Register notices were published on January 16 
and September 6, 2007 and the plan was announced at a press conference 
on November 1, 2006; assorted media reports and releases have been 
issued and a public symposium was held on November 15; meetings were 
held in January 2007 and again in January 2008. The NPS established a 
dedicated planning website at www.nps.gov/nationalmallplan and an e-
mail address at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="157b74617c7a7b7479787479796579747b557b65663b727a633b">[email&#160;protected]</a> Newsletters have been posted 
online and distributed to visitors at events and by park rangers. 
Around 24,000 comments have been received from individuals in all 
states.
    The NPS is continuing to work with professional and other 
organizations to provide accurate planning information via their 
websites, e-mails and magazines. We have provided tours to highlight 
planning issues to symposium participants and organizations and to 
media writing articles about the plan, including a youth reporter from 
Scholastic Magazine.
First Amendment Uses
    From the inception of this plan in July 2006, First Amendment 
demonstrations were identified as a fundamental purpose that must 
continue to occur on the National Mall. The First Amendment defines an 
essential right of citizens and the National Mall Plan in no way 
proposes to infringe upon that right.
    During the second public comment period, the NPS received around 
17,000 comments related to First Amendment demonstrations. Newsletter 3 
described alternative ways of managing events to reduce their impact. 
It became apparent that some commenters assumed the terms ``event'' and 
``demonstration'' could be used interchangeably. For the most part, 
commenters were unaware of the difference between these types of 
gatherings and assumed that the NPS was seeking to restrict First 
Amendment demonstrations or confine them to specific locations. Nothing 
could be farther from the truth.
    The NPS is proud to be able to have a venue for demonstrations that 
exemplify a core value of our nation--Freedom of Speech as enshrined in 
the First Amendment to the United States Constitution. As stated 
repeatedly during planning, it is a fundamental purpose of the National 
Mall to remain as our national civic stage--and the court systems have 
reaffirmed this purpose.
    The Code of Federal Regulations regulates uses on the National Mall 
and the NPS will continue to adhere to these regulations as planning 
for the National Mall continues. The Code of Federal Regulations (36 
CFR 7.96(g) defines the following terms:
        The term ``demonstrations'' includes demonstrations, picketing, 
        speechmaking, marching, holding vigils or religious services 
        and all other like forms of conduct which involve the 
        communication or expression of views or grievances, engaged in 
        by one or more persons, the conduct of which has the effect, 
        intent or propensity to draw a crowd or onlookers. This term 
        does not include casual park use by visitors or tourists which 
        does not have an intent or propensity to attract a crowd or 
        onlookers.

        The term ``special events'' includes sports events, pageants, 
        celebrations, historical reenactments, regattas, 
        entertainments, exhibitions, parades, fairs, festivals and 
        similar events (including such events presented by the National 
        Park Service), which are not demonstrations under the previous 
        definition, and which are engaged in by one or more persons, 
        the conduct of which has the effect, intent or propensity to 
        draw a crowd or onlookers. This term also does not include 
        casual park use by visitors or tourists which does not have an 
        intent or propensity to attract a crowd or onlookers.
    The NPS is not considering any alternatives that are not in keeping 
with the First Amendment and federal regulations. Consistent with 36 
CFR 7.96, demonstrations and other First Amendment activities would 
continue to be permitted throughout the park on a space available, 
first-come first-served request basis. Consideration is being given to 
help improve venues for events and demonstrations; however, 
demonstrations would not be limited to specific areas, and 
demonstrators would not be prohibited from erecting stages or from any 
exercise of First Amendment rights that are currently enjoyed by 
demonstrators on the National Mall. Two of the alternatives would 
increase space available for demonstrations. At no time has the NPS 
entertained the possibility of limiting First Amendment demonstrations 
to specific areas. The NPS has communicated this at public meetings, 
through updating the public planning website and has undertaken a mass 
e-mailing when commenters have provided their e-mail address. At the 
request of some Members of Congress, the NPS has also drafted a 
response to constituent concerns stating that we will be protecting 
First Amendment rights.
Improving Visitor Amenities on the National Mall
    Based on an evaluation of comments and present conditions NPS is 
considering a variety of ways to make the National Mall a more 
comfortable, convenient, enjoyable and welcoming space. Currently NPS 
is designing new directional and orientation signs for pedestrians that 
are coordinated with the city's wayfinding system. Within the National 
Mall Plan, pedestrian circulation alternatives address surfacing, new 
walks, width of walks, crosswalk improvements and pedestrian bridges or 
tunnels. There are over 1,600 public parking spaces along park roads 
throughout the National Mall, and 117 parking spaces for people with 
disabilities. Alternatives related to vehicular circulation explore 
metered parking, underground parking, parking lot or road revisions, 
additional parking for visitors with disabilities, and improvements to 
tour bus drop-offs. The NPS is providing additional bicycle facilities 
and the alternatives look at separate bicycle routes or lanes.
    Public comments indicate that additional services are desired--
visitor facilities may be hard to find, others lack a common identity 
to make them readily apparent, and some are outdated and difficult to 
maintain. The NPS is currently planning the relocation of the 
Washington Monument food and gift concession to allow for the 
construction of the National Museum of African American History and 
Culture and three alternative locations are under review. Public 
comments also indicate that more variety in commercial visitor services 
is desired. Food service is offered at refreshment stands and mobile 
carts, and gifts are available at some locations. However, studies at 
other sites suggest that commercial services should be used to 
strengthen the identity of the NPS as well as the message of 
stewardship and education. The National Mall Plan looks at different 
types of food service that could provide not only relaxing experiences 
but also offer opportunities for additional programs and performances.
    Comments also state that restrooms are insufficient for demand and 
not located near food service outlets. Park furniture is inadequate at 
various times; it does not address the needs of groups, is not focused 
on views, and lacks enough shaded seating in the summer. While the 
Smithsonian Institution's Arts and Industries Building is not under the 
NPS's management, it has been suggested as a good site for a welcome 
center for the National Mall. Using the historic building for visitor 
services (food, restrooms, theater and exhibits) as well as for staging 
certain events in a climate-controlled venue, could take the pressure 
off other Mall resources. This facility is also being proposed as a 
site for a Latino Museum. The NPS will continue to follow the 
Smithsonian plans for the building.
    The Sylvan Theater, the lower approach way to the Lincoln Memorial, 
the D.C. War Memorial, and the Thomas Jefferson Memorial are currently 
used for regularly scheduled performances and school programs. 
Additional entertainment such as opera simulcasts, military concerts, 
and ``Screen on the Green'' are also offered. The National Mall Plan 
explores alternatives for additional or improved performance venues and 
programs.
    Additional recreational opportunities, such as kayaks, rowboats, 
model boats, and lawn chairs have been suggested. A commercial services 
plan would determine the feasibility of any service changes. The D.C. 
Recreation Department issues permits for league use of some ball 
fields. Informal games and recreation take place throughout the 
National Mall. Some people have expressed a desire for more 
entertainment opportunities.
Public Health, Security and Safety Improvements
    The plan will address a number of issues, including public health, 
safety and welfare. While alternative specifics vary the following 
topics are included: pedestrian lighting; pedestrian street crossings/
crosswalk improvements; security perimeter completion; public address/
messages and emergency call boxes; basic services such as restrooms and 
drinking water; services for people with disabilities; relief from heat 
and humidity; providing first aid and emergency medical services; 
emergency preparedness coordination; law enforcement presence, and 
development of separate circulation systems for bicycles.
Transportation on the Mall
    The NPS desires an affordable interpretive visitor transportation 
system, with state of-the-art equipment integrated with the existing 
urban transportation network to 1) serve the estimated 75 percent of 
visitors who are open to using in-park transit services; 2) reduce 
private vehicle congestion; and 3) meet the needs of disabled visitors. 
The current operator, an authorized NPS concession-operated partner, 
serves a million people annually.
    An Environmental Assessment on a new visitor transportation system 
was released in November 2006. It assessed conceptual routes, areas 
served and methods of interpretation. Possible operation models include 
concession contract(s) and public/private partnership(s). The 
Environmental Assessment preferred alternative can be achieved via any 
operations model. The planning process actively sought private industry 
input, including Tourmobile, Gray Line/Martz Group, industry 
associations, National Tour Association, Guild of Professional Tour 
Guides, and Reason Public Policy Institute (focused on the provision of 
public and privatized services), etc. The preferred alternative 
reflects the following 2003 NPS visitor survey data:
    <bullet>  Strong desire (53 percent) for convenience (easy to 
understand, links to Metro/subway),
    <bullet>  Metro widely used by visitors (61 percent); 25 percent of 
visitors have difficulty walking,
    <bullet>  Desire for range of transit services, including 
interpretive tour services.
    The time required to shift to the selected approach will depend 
upon the selected management structure for future service. Current 
estimates range from 6-24 months depending upon the complexity of the 
transition. The current transportation concession contract has been 
extended until December 31, 2008.
    To preserve its treasured memorials and landscapes as well as our 
freedoms, the NPS must efficiently use available resources to improve 
resource conditions; raise the standard of care; establish a standard 
of quality that invites respect and generates stewardship; prepare for 
high levels of use; and provide for the physical needs, enjoyments and 
convenience of visitors and park users on the National Mall. Planning 
for the future will result in an experience that meets the expectations 
of millions of visitors. We accept and embrace the challenge for 
today's generation, which is to restore the National Mall so that it 
will continue to symbolize the ideals and greatness of the United 
States of America.
    Mr. Chairman, this is an overview of the planning process we are 
undertaking for the National Mall. We would be pleased to provide an 
in-depth presentation on any or all aspects of the National Mall Plan 
and remain available to provide updates as you may wish as the planning 
process continues.
    That concludes my statement. I will be happy to answer any 
questions you or other members of the subcommittee might have.
                                 ______
                                 
    Mr. Grijalva. Thank you, without objection. Let me just say 
that I neglected to mention that the full testimony will be 
made part of the record, and any additional materials that 
would want to be included in that testimony will also be made 
part of the record.
    Let me now turn to our next panelist, Ms. Harriet 
Tregoning, Director, Office of Planning, Government of the 
District of Columbia.
    Welcome, and thank you.

 STATEMENT OF HARRIET TREGONING, DIRECTOR, OFFICE OF PLANNING, 
             GOVERNMENT OF THE DISTRICT OF COLUMBIA

    Ms. Tregoning. Thank you very much, Mr. Chairman.
    Good morning, Mr. Chairman, members of the House Committee 
on Natural Resources, Subcommittee on National Parks, Forests, 
and Public Lands. I am Harriet Tregoning, the Director of the 
DC Office of Planning, and I am very pleased to present 
testimony on behalf of Mayor Adrian Fenty regarding the future 
of the National Mall.
    The Mall has long been an important space in the District 
of Columbia. Pierre L'Enfant referred to it as the vast 
esplanade, and intended it to be the symbolic heart of the 
District of Columbia.
    The Mall has indeed been the city's commons, its Central 
Park, its ceremonial gathering place, its festival site, its 
protest grounds.
    It has also long been the southern boundary of the 
districts downtown. With downtown's emergence over the past 10 
years as both a real residential neighborhood and an 
entertainment district, as well as the premiere office location 
in the region, the Mall has been an important part of the 
area's growing vibrancy.
    However, the District of Columbia's downtown is expected to 
be fully built out in the next five years. Mayor Fenty unveiled 
the Development and Quality of Life Strategy earlier this year, 
called the Center City Action Agenda, in order to continue to 
capture the growing demand for office, retail, culture, 
entertainment, and residential demand in our city.
    The Center City Agenda identifies an area nearly three 
times the size of the current downtown that will be home to 
future vibrant, green, and sustainable mixed-use development 
served by transit, but also designed to be walkable and 
bikeable. Several emerging neighborhoods surrounding downtown 
are part of the strategy.
    But the important thing is that it moves the center of the 
city south and east, to include the southeast and southwest 
waterfronts. It crosses the river into Anacostia. So it makes 
the National Mall no longer the lower boundary of downtown, but 
literally the center of Center City Washington.
    So we have a deep interest in the future of the Mall. We 
have been collaborating with our Federal partners on a series 
of efforts to enhance circulation and the quality of experience 
for residents, workers, and visitors to our city.
    Since 2006, several DC Government agencies, including the 
Office of Planning, the State Historic Preservation Office, and 
the District Department of Transportation, have been engaging 
with the National Park Service as it develops its 50-year 
comprehensive vision statement for the National Mall. 
Throughout this planning process, discussions have focused on 
preservation and the necessary evolution of the Mall in 
response to opportunities created in part by the revitalization 
of surrounding city blocks, waterfront destinations, and 
emerging neighborhoods.
    Another district collaboration with the Federal planning 
agencies resulted in a framework document called, ``Planning 
Together for Central Washington,'' that Mr. Cogbill will be 
talking to you more about, so I will leave that part.
    And for the past two years, we have been working with the 
National Capital Planning Commission, the District's Department 
of Parks and Recreation, and the National Park Service on an 
effort called Capital Space. It is an effort designed so that 
local and Federal agencies can develop a comprehensive system 
to manage all the parks and open spaces in the District.
    While the National Mall is certainly an icon in the 
nation's capitol city, it is also a vital city park that 
provides both positive and active recreation for local and 
regional workers and residents. The facilities and programs 
provided on the Mall, including more than 6 volleyball courts, 
22 baseball diamonds, 2 football fields, 3 rugby fields, and 
many more active recreational spaces, they are a big part of 
helping us meet the challenge of active recreation facilities 
in the District, and making the city one of the most livable in 
the world.
    In addition, we are currently involved in one other 
collaboration with the Park Service related to the need for 
improvements to floodplain protection in the District. 
Recently, FEMA highlighted concerns that they and the U.S. Army 
Corps of Engineers had about an increased risk of flooding on 
the Mall, as well as the Federal triangle, because of 
deficiencies in the existing Potomac Park Levee, particularly 
at the 17th Street closure.
    With the Park Service and our other Federal partners, 
particularly the National Capital Planning Commission, FEMA 
itself, and GSA, we have organized an unprecedented cooperative 
effort that allows us to move very rapidly toward an immediate 
remedy that will protect the National Mall, Federal buildings, 
and private property, and result in construction of an improved 
levee system we hope in the next 18 months.
    These collaborative efforts have several things in common, 
including recognizing the need to relieve some of the pressure 
for monuments, memorials, and the increasing number of 
activities on the Mall, by making other important locations in 
the city visible, well-known, convenient, and easily 
accessible. And a high-performing transportation system is very 
important to that, providing convenient, safe, and equitable 
access to the National Mall, and allowing residents and 
visitors to experience the city by foot, by bike, by transit. 
And that is a goal that we all share.
    We are proud of the fact that for many of our city's 
visitors, their very first experience on transit is in the 
District of Columbia. We aspire to enhance our transit system 
with cutting-edge transportation technology, and really make it 
possible for a walkable urban character way-finding, green 
infrastructure, and transit to support strong and inviting 
connections between the Mall and the center city areas.
    Together, I think we can do all of these things, realize 
all of our ambitions for the Mall, and be a model of green and 
sustainable development.
    We would like to support the vision of a management plan 
that emerges for the Mall that will afford great opportunities 
for enhancements to event programming, transportation, parking, 
visitor information systems and amenities, so that the city can 
realize its vision as a globally competitive, green and 
sustainable capitol city, as well as continue the Mall's legacy 
as a permanent world's fair, demonstrating to the United States 
citizens and visitors what it is like to experience 21st 
century transportation and green and sustainable development 
practices.
    Thank you for the opportunity to present this testimony on 
behalf of the District of Columbia and Mayor Adrian Fenty. I 
would be pleased to answer any questions you may have.
    [The prepared statement of Ms. Tregoning follows:]

    Statement of Harriet Tregoning, Director, DC Office of Planning

    Good morning members of the House Committee on Natural Resources 
Subcommittee on National Parks, Forests and Public Lands. I am Harriet 
Tregoning, Director of the District of Columbia Office of Planning and 
I am pleased to present testimony on behalf of Mayor Adrian M. Fenty 
regarding the future of the National Mall.
    Pierre L'Enfant referred to the Mall as ``the vast esplanade,'' and 
intended it to be the symbolic heart of the District of Columbia. The 
National Mall has been the city's common, its central park, its 
ceremonial gathering place, its festival site, and its protest grounds.
    Through the years, the Mall has hosted an incredibly diverse array 
of activities. In the late 19th century, activities on the Mall 
included farming, canal transport, and a train depot. In the early 20th 
century, people could be found strolling in romantic gardens, 
picnicking on the grass, and studying botanical displays. Now, on any 
given day one can find families ice skating, playing ball, listening to 
blues, jogging, bicycling, flying kites, watching fireworks, or viewing 
monuments by moonlight.
    The Mall has also hosted an amazing range of events--from the Solar 
Decathlon, the Smithsonian Folk Life Festival, and the Memorial Day 
concert, to marches in support of AIDS research, a breast cancer cure, 
climate change action or an end to famine. These events create a 
vibrancy that makes living in the nation's capital a unique experience, 
with the Mall an inspiring and evolving place of exploration, 
education, and ideas.
    The Mall has long been the southern boundary of the District's 
Downtown. With Downtown's emergence over the past 10 years as both a 
real residential neighborhood and entertainment district, and as the 
premiere office location in the region, the Mall has been an important 
part of the area's growing vibrancy. However, the District of 
Columbia's Downtown will be fully built out in the next five years. 
Mayor Adrian Fenty unveiled a development and quality of life strategy 
earlier this year--the Center City Action Agenda--in order to continue 
to capture the growing demand for office, retail, culture, 
entertainment, and residential space. The Center City Action Agenda 
identifies an area nearly three times the size of the current Downtown 
that will be home to future vibrant, green, and sustainable mixed-use 
development served by transit, but also designed to be walkable and 
bikeable. Several emerging neighborhoods surrounding downtown are part 
of the strategy, including NoMA, the area north of Massachusetts where 
NPR and the Department of Justice recently announced their relocation; 
the Capital Riverfront, where the new LEED-certified Nationals baseball 
stadium recently opened; Hill East, along the Anacostia, east of the 
Capitol Hill neighborhood; the Southwest Waterfront; Mount Vernon; and 
Poplar Point/Anacostia. This strategy moves the center of the city 
south and east to include the southeast and southwest waterfronts and 
crosses the river into Anacostia. No longer the lower boundary of 
Downtown, the Mall becomes the literal center of Center City 
Washington.
    The District of Columbia has a deep interest in the future of the 
Mall. We have been collaborating with our federal partners on a series 
of efforts to enhance circulation and the quality of experiences for 
residents, workers, and visitors to our city.
    Since 2006, several DC Government agencies, including the DC Office 
of Planning, the State Historic Preservation Office (as one of the 
Section 106 review consulting parties) and the District Department of 
Transportation, have been engaging with the National Park Service as it 
develops a 50-year comprehensive vision statement for the National 
Mall. Throughout this planning process, discussion has focused on 
preservation and necessary evolution of the Mall in response to 
opportunities created by the revitalization of the surrounding city 
blocks, waterfront destinations, and emerging neighborhoods.
    Another of the District's recent collaborations with federal 
planning agencies resulted in a vision framework document called 
``Planning Together for Central Washington,'' which gives voice to the 
shared collective goals of the District and the federal agencies with 
responsibility for the stewardship and development of Central 
Washington, including the Mall. The DC Office of Planning, the National 
Park Service, the National Capital Planning Commission, the Commission 
of Fine Arts, and the Architect of the Capitol envision a Central 
Washington that achieves:
    <bullet>  Welcoming Atmosphere
    <bullet>  Well-Connected Public Space
    <bullet>  Distinctive Places
    <bullet>  Green and Sustainable Development
    <bullet>  21st Century Transportation
    Also, for the past two years, the DC Office of Planning and the 
District's Department of Parks and Recreation have been working with 
the National Park Service and the National Capital Planning Commission 
on a collaborative planning effort called CapitalSpace so that local 
and federal agencies can develop a comprehensive system to manage parks 
and open space located in the District. While the National Mall is an 
icon in our nation's capital city, it is also a vital city park that 
provides both passive and active recreation for local and regional 
workers and residents. The CapitalSpace project has identified a 
deficiency in District-owned recreation facilities in Center City and 
other close-in neighborhoods. A significant challenge exists in an area 
like ours with significant growth and few land resources. The 
facilities and programs provided on the Mall--including more than six 
volleyball courts, 22 baseball diamonds, two football fields, and three 
rugby fields--play a big part in helping meet this challenge, as well 
as making the District one of the most livable cities in the world.
    In addition, we are currently involved in another collaboration 
with the National Park Service related to the need for improvements to 
floodplain protection in the District. Recently the Federal Emergency 
Management Agency (FEMA) highlighted concerns they and the U.S. Army 
Corps of Engineers had about an increased risk of flooding on the Mall, 
as well as the Federal Triangle and adjacent areas because of 
deficiencies in the existing Potomac Park Levee, particularly at the 
17th Street closure. With NPS and our other federal partners including 
NCPC, the U.S. Army Corps of Engineers, FEMA, and General Services 
Administration, we have organized an unprecedented cooperative effort 
that has allowed us to move very rapidly towards immediate remedies 
that will protect the National Mall, federal buildings, and private 
property. We are very appreciative of our federal partners, especially 
NPS, for the spirit of cooperation, and the quality of the resources 
that they have dedicated to this effort, which we expect to result in 
construction of an improved levee system in the next 18 months.
    These collaborative efforts have several things in common, 
including recognizing the need to relieve some of the pressure for 
monuments, memorials, and the increasing number of activities on the 
Mall by making other important locations in the city visible, well-
known, convenient, and easily accessible. In order to realize this 
vision, the parties agree that key investments in a few streets and 
avenues are essential. A high-performing transportation system that 
provides convenient, safe, and equitable access to the National Mall 
and allows residents and visitors to experience the city by foot, bike, 
or transit is a goal that is shared among the entities responsible for 
stewardship of the National Mall. We are proud of the fact that for 
many of our city's visitors, their first experience with transit is in 
Washington, DC. We aspire to enhance our transit system with cutting 
edge transportation technology. Enhancing the ability for residents and 
visitors to get to and from the National Mall via 4th Street, 7th 
Street, 14th Street, Constitution and Independence Avenues on foot, 
bicycle, and transit is a priority. A walkable urban character, way-
finding information systems, green infrastructure, and transit support 
strong and inviting connections between the Mall and surrounding Center 
City areas. Along existing vehicular routes across the Mall, improved 
pedestrian access, additional street trees, ground-level retail, and 
cultural activity can encourage residents to intimately experience on 
foot the nation's most important civic space and venue for expression 
of democratic events and ideals.
    Part of the legacy of the Mall, dating from the McMillan plan, is 
the notion of that grand civic space as a kind of permanent world's 
fair, an exposition that showcases the latest technology and industry, 
the finest art and cultural achievements, as well as the history of 
this country and the world. We think the Mall should continue to be 
that place--but now also showcasing the best in 21st century 
transportation, and in green and sustainable development practices--in 
keeping with the General Services Administration's leadership and with 
the District's own Green Building Act, the most ambitious in the 
nation. Transportation around the nation's premier civic space in 
particular should be a model for the rest of the country. This entails 
designing ``Complete Streets'' that provide for the mobility of 
pedestrians, cyclists, transit riders, and drivers in an attractive and 
safe environment. This also means a road infrastructure designed using 
``Green Highway'' principles, such as use of recycled materials, 
watershed-based stormwater management, and shared space for motorized 
and non-motorized travel. In addition, 21st century energy-efficient 
vehicles should be provided as options for visitors to travel among 
tourist sites along the National Mall, as well as other popular 
destinations throughout the city, such as Georgetown, Dupont Circle, 
and Union Station. This also means re-thinking management of the Mall 
to support a strong presence of the District's SmartBike program on the 
National Mall. Bike sharing has a host of benefits for the environment 
in and around the National Mall. It is carbon-free and has no negative 
impact on air quality. It combats climate change, supports green collar 
jobs, reduces congestion, decreases noise pollution, requires no 
parking spaces, provides healthy exercise, and offers residents, 
workers, and tourists a great way to experience and navigate the city.
    As the National Park Service prepares to celebrate one hundred 
years of stewardship and leadership in the management of some of the 
nation's most treasured public spaces, we have arrived at an important 
crossroads in the history of the National Mall. We are transitioning 
from a period where the citizens of our nation primarily experienced 
national parks by visiting our country's important wilderness areas. 
Today some of our most visited national parks are in urban communities 
like Golden Gate Park in San Francisco or the National Mall in 
Washington. These urban park sites are very intensely used--overused, 
some may say. Today, visitors have much higher expectations about the 
quality, programming, and management of urban parks than in previous 
eras. The Sculpture Garden at the National Gallery of Art is one park 
that seems to fully meet those higher expectations. Highly utilized, it 
is programmed for a variety of seasonally-appropriate activities, 
features a prominent and lovely restaurant, offering not just 
sustenance, but cuisine, and it is meticulously maintained. However, we 
should examine how we might enhance the existing resources allocated to 
our national parks and the current guidelines for the use and 
management of the National Mall to meet the new expectations of its 25 
million annual visitors. Other urban parks have used public-private 
partnerships to provide for the unique and evolving needs of urban park 
users, including the Central Park Conservancy in New York City and the 
Golden Gate National Park Conservancy in San Francisco.
    Together, I think we can continue to do all this and even more. We 
can take further steps to be a model of green and sustainable 
development. In the Summer of 2007, the Mall was host to the Solar 
Decathlon and recently the U.S. Botanic Garden constructed a 
Sustainable Schoolyard exhibit to demonstrate how green schoolyards can 
lead to healthy, active, green, and livable communities. It is our hope 
that the vision and management plan that emerges for the National Mall 
will afford great opportunities for enhancements to event programming, 
public transportation, parking, visitor information systems and 
amenities in order that the city may realize its vision as a globally 
competitive, green and sustainable capital city, as well as continue 
the Mall's legacy as a permanent World Fair demonstrating to United 
States citizens and visitors what it is like to experience 21st Century 
transportation and green and sustainable development practices.
    Thank you for the opportunity to present this testimony on behalf 
of the District of Columbia and Mayor Adrian Fenty. I am pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Now I will ask our other 
panelist, Mr. John V. Cogbill, III, Chairman, National Capital 
Planning Commission.
    Sir, your testimony.

         STATEMENT OF JOHN V. COGBILL, III, CHAIRMAN, 
              NATIONAL CAPITAL PLANNING COMMISSION

    Mr. Cogbill. Good morning, Chairman Grijalva and members of 
the Subcommittee. I am John Cogbill, Chairman of the National 
Capital Planning Commission, also known as NCPC. Our agency 
serves as the Federal government's planning agency for the 
National Capital Region.
    I welcome the opportunity to speak to you about NCPC's role 
as it relates to the National Mall and this great capitol city. 
I am pleased to report that there is great cooperation taking 
place among the key agencies responsible for the Mall and its 
surrounding areas.
    NCPC, the U.S. Commission of Fine Arts, the National Park 
Service, the District of Columbia Government, and the Architect 
of the Capitol are closely collaborating with each other and 
others who have a vital interest in the Mall.
    Together we recently announced a joint endeavor planning 
together for Central Washington. Our efforts are distinct, yet 
reflect the shared objectives we have for the city and the 
treasured open space of the Mall. We know that there are 
continuing and increasing demands on the National Mall due to 
its role as a preeminent symbolic landscape in the country. The 
Mall is an historic terrain, as envisioned by Pierre L'Enfant 
and the McMillan Commission; but it also is an evolving 
landscape that must be adapted to meet the needs of the current 
and future generations.
    As part of its ongoing work to preserve and protect the 
Mall, NCPC and CFA joined forces in May of 2006 to develop the 
National Capitol Framework Plan, a comprehensive study of 
predominantly Federal precincts immediately surrounding the 
Mall. This initiative is one of four of the planning together 
projects.
    The Framework Plan will identify opportunities to create 
new and exciting cultural destinations beyond the Mall for 
memorials, museums, and public gatherings.
    The plan is being developed with the input of important 
stakeholders that include key Federal and local agencies, as 
well as the public. The Framework Plan seeks to preserve the 
open space, grace, and beauty of the National Mall, create 
desirable settings for new cultural destinations, and enhance 
the appearance and function of our public spaces; improve 
connections to existing and new destinations, and contribute to 
the growth and sustainability of our capital city.
    The initiative focuses on these key objectives: 
establishing the Federal triangle and northwest rectangle as 
high-quality workplaces, and workable cultural destinations; 
strengthening Pennsylvania Avenue's image as Washington's main 
street; transforming the Southwest Federal Center Precinct into 
a distinguished workplace and a welcoming cultural hub. And 
finally, establishing East Potomac Park as an easily accessible 
destination that offers expanded opportunities for 
commemorations, celebration, and recreation.
    By expanding the setting for new memorials and museums, 
enhancing the function and beauty of public space, and linking 
destinations, the Framework Plan can be a valuable tool to 
preserve the Mall. The Framework Plan builds upon NCPC's 
extending the legacy and the memorials and museums master plan. 
Legacy is the visionary guide for long-term growth in the 
Capitol for the next 50 to 100 years. It calls for recentering 
the city on the U.S. Capitol by distributing memorials, 
museums, and other new development on an axis with the Capitol 
and in emerging areas along the waterfront.
    The 2001 Memorials and Museums Master Plan aims to protect 
the Capitol city's open space, and ensure future sites for 
commemoration. It identifies 100 sites throughout the city for 
memorials and museums, and called for a reserve or no-build 
zone on the Mall, which Congress enacted in 2003.
    Since its release, the Plan has guided five memorials to 
sites off the Mall. The success of the Master Plan supports the 
Framework Plan's premise that memorial sponsors will be 
attracted to sites off the Mall, as long as these are appealing 
locations. Creating new destinations throughout Washington will 
ease pressure on the Mall, stimulate activity in other parts of 
the city, and encourage visitors to see more of our capitol 
city.
    The opportunities identified in the Framework Plan supports 
NCPC's earlier efforts, and complements the work of our 
partnering agencies. Shared goals include preservation of the 
Mall, expanding the city center to the waterfront, creating 
distinguished and accessible public places, and achieving a 
livable and sustainable capitol city.
    Achieving a sustainable capitol will, in fact, be the focus 
of an NCPC conference in September, assembling planners from 
around the globe to explore the leadership role of capitol 
cities in creating a more sustainable community.
    The Framework Plan supports efforts to increase visitor 
support facilities on or near the Mall. We are working with the 
Park Service as a cooperating agency on its National Mall Plan, 
and we are participating with their efforts to identify an 
interpretive transportation system. We are also working with 
the District on its Center City Action Agenda, which supports 
our efforts to draw memorial and museum sponsors to locations 
off the Mall.
    Further, the NCPC, the Park Service, and the District have 
joined together to develop a permanent levee location solution 
for the National Mall that is sensitive to the historic 
landscape.
    Since 1936, a levee system in the vicinity where temporary 
buildings were located on the Mall during World War II, has 
helped to protect Washington's Federal buildings and downtown 
business district from river flooding. However, the Army Corps 
of Engineers identified a need to make the levee more reliable 
and effective against a 100-year floor. The partnering agencies 
recognized the Mall as an evolving landscape that must be 
adapted to meet current and future needs.
    In closing, thank you for inviting me to brief you on our 
continuing efforts to preserve the National Mall. We welcome 
the opportunity to keep you informed on the progress of the 
Framework Plan, and I work to improve the experience of those 
who visit, live, and work in our nation's capitol.
    Thank you.
    [The prepared statement of Mr. Cogbill follows:]

             Statement of John V. Cogbill, III, Chairman, 
                  National Capital Planning Commission

    Good morning, Chairman Grijalva and Members of the Subcommittee on 
National Parks, Forest and Public Lands. My name is John Cogbill. I am 
the Chairman of the National Capital Planning Commission, also known as 
NCPC. The agency serves as the federal government's central planning 
agency for the National Capital Region.
    I am pleased to have this opportunity to speak with you about 
NCPC's role in enhancing the future of the National Mall and burnishing 
Washington's image as a great capital city.
    This is an ideal time to focus on the future of the Mall and 
central Washington. Currently, there is extraordinarily good 
coordination taking place among key agencies responsible for the Mall 
and its surrounding areas.
    NCPC, the U.S. Commission of Fine Arts, the National Park Service, 
the District of Columbia Government, and the Architect of the Capitol 
are closely collaborating with each other and others who have a vital 
interest in this open space. Together, these agencies announced a joint 
endeavor in February--``Planning Together for Central Washington.'' Our 
coordinated efforts are distinct; yet reflect the shared objectives we 
have for the city and the treasured open space of the Mall that is 
recognized by millions of Americans as a premier symbolic site in the 
nation's capital.
    NCPC recognizes that there are continuing and increasing demands on 
the National Mall due to its role as the preeminent symbolic landscape 
in our country. The Mall is an historic landscape, as envisioned by 
Pierre L'Enfant and the McMillan Commission, but it also is an evolving 
landscape that must be adapted to meet the needs of current and future 
generations.
    In recognition of the needs of the Mall, NCPC and CFA joined forces 
to develop the National Capital Framework Plan, a comprehensive study 
of predominantly federal precincts immediately surrounding the Mall. 
This initiative is one of four of the Planning Together projects. The 
other three include the Park Service's National Mall Plan, the city's 
Center City Action Agenda, and the Architect of the Capitol's Capitol 
Complex Master Plan. NCPC's and CFA's Framework Plan will identify 
opportunities to create new and exciting cultural destinations beyond 
the Mall for memorials, museums, and public gatherings. Launched in May 
2006, the plan is being developed with the input of important 
stakeholders that include key federal and local agencies as well as the 
public.
    The Framework Plan seeks to
    <bullet>  Preserve the open space, grace, and beauty of the 
National Mall;
    <bullet>  Create desirable settings for new cultural destinations 
and enhance the appearance and function of public spaces, streets, 
parks, and plazas for workers, visitors, and residents;
    <bullet>  Improve connections to existing and new destinations; and
    <bullet>  Contribute to the growth and sustainability of the 
capital city.
    The initiative focuses on the enhancement of five key areas: (1) 
establishing the Federal Triangle and the Northwest Rectangle as high-
quality workplaces and walkable cultural destinations that are 
connected by beautiful and engaging public spaces; (2) strengthening 
Pennsylvania Avenue's image as Washington's main street; (3) 
transforming the Southwest Federal Center precinct into a distinguished 
workplace and a welcoming cultural hub and visitor destination; and, 
(4) establishing East Potomac Park as an easily accessible destination 
in Washington's iconic landscape, offering expanded opportunities for 
commemoration, celebration, active recreation, and leisure activities.
    By expanding the setting for new memorials and museums, enhancing 
the function and beauty of public space, and linking destinations 
within the city, the Framework Plan can be a valuable tool to preserve 
the Mall. To achieve these goals, the plan explores beautification of 
public spaces; infrastructure changes; mixed-use development 
opportunities in precincts around the Mall; the use of federal land and 
facilities in the monumental core, and transit options between 
downtown, the Mall, and the waterfront.
    The Framework Plan respects the foundation laid by Pierre L'Enfant, 
designer of the capital city. It is an action plan that builds upon 
NCPC's Extending the Legacy and the Memorials and Museums Master Plan. 
Legacy is a visionary guide for long-term growth in the capital for the 
next 50 to 100 years. It is the result of a multi-year collaboration 
with federal landholding agencies, Congress, the public, preeminent 
architects, planners, historians, and other experts. Legacy called for 
re-centering the city on the U.S. Capitol by distributing memorials, 
museums, and other new development on axis with the Capitol and in 
emerging areas along the waterfront.
    The Memorials and Museums Master Plan, released in 2001, aims to 
protect the capital city's open space and ensure future sites for 
commemorative works by identifying 100 appropriate sites throughout the 
city. The Master Plan was the first tool designed to bring the visions 
outlined in Legacy to fruition. In addition to identifying alternative 
sites for commemorative works, the Master Plan called for the 
establishment of a Reserve or no-build zone on the Mall, which Congress 
enacted in 2003. Since its release, the Memorials and Museums Master 
Plan has been instrumental in guiding five commemorative works to sites 
off the Mall. These include the U.S. Air Force Memorial overlooking the 
Pentagon, the Memorial to Victims of Communism (intersection of New 
Jersey and Massachusetts Avenue), the Thomas Masaryk Memorial (at 
Massachusetts and Florida Avenue), and two future memorials--one 
honoring President Eisenhower (to be located near the Air & Space 
Museum) and another honoring American Veterans Disabled for Life (along 
2nd Street, SW across from Washington Avenue).
    The success of the Master Plan in locating commemorative works off 
the Mall supports the Framework Plan's premise that memorial sponsors 
will be attracted to sites off the Mall, as long as there are appealing 
and exciting destination spots elsewhere in the city. Creating new 
destinations throughout Washington will ease pressure on the Mall, 
stimulate activity in other parts of the city, and encourage visitors 
to see more of central Washington. Collectively, this will broaden the 
public's image of the nation's capital and improve the visitor's 
experience.
    The opportunities identified in the Framework Plan support and 
complement the work of the National Park Service, the District of 
Columbia, and the Architect of the Capitol, which have undertaken major 
initiatives for central Washington, DC. Shared goals include 
preservation of the Mall, expanding the city center to the waterfront, 
creating distinguished and accessible public places, and achieving a 
liveable and sustainable capital city.
    The National Park Service's Mall Plan is a necessary tool to both 
preserve the Mall's historic landscape and manage its physical 
development. As America's symbolic front yard, the Mall must 
accommodate high levels of use, both in numbers of visitors, the volume 
of special events, and commemorative needs. The Mall, roughly 650 acres 
in size and framed by historic landscape, should exemplify model 
practices in environmental sustainability. We are working with the 
National Park Service as a cooperating agency on the National Mall 
Plan, and we have collaborated with NPS throughout the development of 
our Framework Plan.
    NCPC also is an active participant in the National Park Service's 
identification of a new interpretive transportation system. We strongly 
support an easy-to-use and affordable system that is integrated with 
the city's urban transportation network to serve visitors, residents 
and workers. One potential future transit service that could be 
considered for the Mall is the successful DC Circulator system, first 
proposed in NCPC's Legacy Plan. The city's Circulator system offers 
frequent, affordable, and easy-to-use service that has the flexibility 
to accommodate the changing needs of the National Mall. NCPC, in 
collaboration with its partners, also seeks to improve vehicular, 
bicycle, and transit options between the monumental core and the center 
city, and along the waterfront.
    In addition to the Park Service's Mall Plan, the Framework Plan 
also complements the District's Center City Action Agenda, which 
strives to improve downtown DC and advances Washington's identity as a 
world-class city. The District's work to enhance the capital city 
supports our efforts to draw memorial and museum sponsors to locations 
away from the Mall, by creating vibrant and attractive destinations 
that feature a variety of mixed-uses such as retail, restaurants, 
offices, and residential dwellings.
    Further, NCPC, the Park Service, and the District have joined 
together to develop a permanent levee solution for the National Mall 
that is sensitive to the historic landscape. Since 1936, a levee 
system--in the vicinity where temporary buildings were located on the 
Mall during World War II--has helped to protect Washington's federal 
buildings and downtown business district from river flooding. However, 
the U.S. Army Corps of Engineers identified a need to make the levee 
more reliable and effective against a 100-year flood. The partnering 
agencies recognize that the Mall is an evolving landscape that must be 
adapted to meet current and future needs. We are committed to 
collaborating with our federal and local stakeholders to design and 
construct an interim fix to this problem and to identify potential 
permanent solutions.
    NCPC shares the concerns voiced by Congressional members, the 
National Park Service, and the American people regarding the need to 
protect this historic terrain and ensure the availability of visitor 
support facilities on or near the Mall. The Framework Plan supports 
efforts to increase food service, restrooms, seating, and signage on 
the Mall and in adjacent areas in order to help create a world-class 
experience for the millions of annual visitors from home and abroad. 
Americans take proud ownership of the National Mall for many reasons, 
and we must ensure that they are inspired by their visit.
    NCPC and CFA are currently preparing a draft of the Framework Plan 
for public review and comment. The plan has benefited from public input 
at several public meetings and from coordination with many federal and 
District of Columbia agencies. A 16-member interagency Steering 
Committee also is providing oversight to the planning process. We 
intend to present the draft to the interagency Steering Committee on 
June 2. A final draft will then be presented to both Commissions and 
released to the public for review and comment. Following public 
comment, staff will refine the plan as appropriate and seek final 
approval from NCPC and CFA.
    Thank you for inviting me to share NCPC's work on the National Mall 
and to brief you on our continuing efforts to develop the National 
Capital Framework Plan. We welcome the opportunity to keep you informed 
of our progress on the Framework Plan and as well as our collaborative 
efforts with our partners to improve the image of the nation's capital 
and the experience of those who visit, live, and work in Washington, 
DC.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me begin with you, 
Mr. Cogbill, and comment that you made in your testimony.
    Since establishing the reserve and shepherding all the new 
memorials into other areas of the city, how have these new 
memorial locations been, throughout the city, been received by 
those seeking to establish the new memorials, number one? And 
number two, is there a member of the city under these new 
guidelines that seems to be more popular in the establishment 
of these memorials?
    Mr. Cogbill. Well, we had great success with the 2-M Plan. 
We actually had five memorials that have come before us, and 
have now been considered, and are actually going to be located 
off the Mall, three currently in existence. The Air Force 
Memorial at the Pentagon is one. The Victims of Communism 
Memorial, which was established in 2007 at New Jersey and 
Massachusetts Avenue; the Thomas Masaryk Memorial, who was the 
first president of Czechoslovakia, has been established. And we 
currently have looked at plans and are working with those who 
would propose to build the monument to President Eisenhower, 
and also the veterans disabled for life. Both of those have a 
picked site, all of those have picked sites from the 2-M Plan. 
And we have continuing interest in people coming before us.
    The second part of your question, we believe this has been 
well received. What has the effect of is making people focus on 
areas outside of the reserve, realizing that there are very 
distinguished sites available within the city that can be used. 
And by having this book available to them, they understand and 
appreciate the viability of these sites. And it enhances the 
visitor experience in Washington.
    Mr. Grijalva. Thank you. Ms. Tregoning, let me, a couple of 
questions.
    Do you think that the needs of local residents are in 
conflict with, as we talk about this planning process and the 
future of the Mall, are they in conflict with the need of 
visitors, tourists?
    Ms. Tregoning. Mr. Chairman, I don't think that they are in 
conflict. If you ask me could they be better integrated, could 
the means of the visitors and the residents be better 
integrated, I would have to say yes, they could, particularly 
where it concerns transportation.
    Right now we do have more or less separate transportation 
systems for visitors with interpretive services, versus the 
transit that serves other parts of the city. We have a 
relatively new premium transit service called the DC 
Circulator, and we have designated a new route that goes to the 
Mall, particularly on weekends, to try to accomplish some of 
our common planning goals, which includes getting people to 
experience other parts of the city than just the Mall, which 
helps to relieve some of that pressure to always be there on 
the Mall. And frankly, enjoy the many revitalizing and exciting 
neighborhoods around the city. And I think there is opportunity 
to do more of that integration.
    Mr. Grijalva. Then back to that same question. So do you, 
is the Mall seen by local residents as more, as more important 
as an urban green space? Or as more important as a memorial 
landscape?
    Ms. Tregoning. I would have to say, Mr. Chairman, that even 
for long-time Washington residents, I think it is important as 
both of those things. That, you know, people are very, very 
proud of the nationally significant events that happen on the 
Mall, and participate in a lot of them. And that is really a 
source of great pride and inspiration about living here in 
Washington.
    But it is also true that, you know, being able to have a 
Saturday morning softball game, or do some recreational 
activities after work, or jog along the Mall, that is an 
important part of the quality of life that Washington citizens 
enjoy, and that visitors also get to take part in. So I would 
hate to savor one thing at the exclusion of the other.
    Mr. Grijalva. As a non-Federal entity working with all 
these Federal partners in this process, how would you 
characterize the level of collaboration and cooperation of all 
these agencies involved in the planning process?
    Ms. Tregoning. I would have to say, Mr. Chairman, that I 
have only been with the District Government for about a year 
and a half; but from everything that I understand, I think that 
we are enjoying a time of unprecedented cooperation and 
collaboration, and a great commonality in some of our goals, 
some of our planning goals. And particularly our transportation 
goals.
    So I would have to say it is a very favorable climate.
    Mr. Grijalva. Thank you very much. My time is winding down. 
If I have an opportunity to ask some questions of the 
superintendent.
    Mr. Bishop.
    Mr. Bishop. Thank you. Are these new mics? You guys are 
spending money all over the place, aren't you, here? It is a 
good thing it wasn't in the supplemental.
    Mr. Cogbill and Ms. Tregoning--is that proper? Good. As I 
have heard your oral testimony, you have talked about the 
vision of expanding sites so that people are visiting other 
areas rather than the Mall, as well as the cooperation. I would 
just congratulate you on that. It sounds as if the cooperative 
nature between the Federal government and the city is working 
well, and you have a good vision.
    I think the idea of expanding to other sites and 
emphasizing other sites within Washington is a marvelous plan. 
And I appreciate the testimony you have given so far. It is one 
that I think is very positive. So thank you for your 
presentation, and I urge you to push forward with that vision 
you have enunciated today in your oral testimony.
    Ms. O'Dell, the public comment needs that you recited from 
the Mall area seems to be the same needs that I have heard on 
every, every national park that we have. Are you treating this 
Mall differently than any other national parks, as far as this 
public process or this planning process?
    Ms. O'Dell. I believe that we are following the National 
Park Service process for planning, and that we are putting a 
heavy emphasis on public involvement. And we have chosen to 
extend public comment periods to let more people put their 
voice forward for our planning effort. And we intend to go 
forward with more public involvement and public comment periods 
as the plan develops.
    So I believe we are on track with the National Park 
Service's approved planning process, and that we will always 
err on the side of more public involvement than less.
    Mr. Bishop. The 41 seasonal employees that you have added, 
what kinds of jobs are these?
    Ms. Tregoning. We have maintenance employees, basically 
laborers. We have resource management employees who are doing 
more specific maintenance at monuments and memorials. And then 
we have park rangers to do interpretation and education.
    Mr. Bishop. How many rangers of that 41 would there be, 
roughly?
    Ms. Tregoning. About 20.
    Mr. Bishop. About half and half, then.
    Ms. Tregoning. Yes. Approximately, yes, sir.
    Mr. Bishop. I appreciate that very much. I just have two 
other comments. In fact, in the morning I brought seven members 
of the German Bundestag to one of the national parks; we flew 
in late last night.
    The things that you all need to work on in the future are 
what you have already identified: that is, access to the malls.
    Ms. Tregoning. Yes, sir.
    Mr. Bishop. You know, parking abilities, or those 
alternatives for parking, that has to be there. And the second 
is obviously the condition of the Mall.
    I am on the softball league, and I enjoy playing out there. 
So I would urge you not to take our fields during the summer, 
and I would urge the Chairman to make sure votes don't go later 
than 6:00 on a Wednesday night.
    [Laughter.]
    Mr. Bishop. For the months we would get off at 3:00, and 
all of a sudden softball season starts and you screwed me over 
three weeks in a row. There better not be a fourth, that is all 
I can say.
    Thank you. I yield back.
    Mr. Grijalva. Mr. Kildee.
    Mr. Kildee. Thank you for having this hearing this morning. 
I have been in Washington for 32 years, and have a great love 
of the open spaces of the Mall. And I commend all of you for 
working together. I think it takes a great cooperative effort. 
And all I can say right here is to encourage you to continue 
that. You are not competitors; you are people who want to 
enhance everyone's experience on the Mall, and maintain the 
nature of the Mall with some of the additions that we do put 
there. And I think I just want to commend you for that 
cooperative attitude among yourselves, and urge you to continue 
that in the future.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Brown, do you, any questions? Thank you, 
sir.
    Mr. Holt. Thank you, Mr. Chairman. I do have a couple of--
the Mall is, obviously has many, many different kinds of uses, 
and that have been tough on the landscape. And what I want to 
ask is, what is going into the plan that will look after the 
maintenance of the trees? One particular area that I have in 
mind is Constitutional Gardens, at the, I guess it is the west 
end of the Mall. At the time of the Bicentennial in 1976, that 
area was designed in keeping with the event planned. Those 
trees are now more than 30 years old. They are all stunted, and 
it does not look like the mature forest that it should be 
turning into.
    Our colleague, Ms. Holmes Norton, spoke about the need for 
shade, and to appreciate the Mall. It really is at a premium. 
And part of the problem is that the drainage, the soil 
preparation, and the maintenance simply has not been done in 
Constitutional Gardens, as one example.
    And I wanted to know, in addition to all the attention to 
the memorials and the buildings, what attention is being paid 
to the trees? And that will be for all three of you.
    Ms. O'Dell. May I begin? I believe that as part of the 
planning process for the Mall, as we look at other places 
around the country and around the world, we look at their best 
practices of how they maintain their turf, how they maintain 
their trees, and how they maintain their monuments and 
memorials.
    And we are trying to learn from other places that have 
better results than we are currently having on the National 
Mall. So we are looking for better practices.
    And as the Superintendent of the National Mall, that is 
where I need to start. I need to question our assumptions about 
the maintenance program that we currently have, and try and 
figure out how we can do better with the resources that we 
currently have.
    And the Natural Resources is a very strong point of 
conversation with the planning team and with our consulting 
parties, who all share the desire to maintain that historic 
landscape, those historic trees; who provide the amenities for 
visitors as they visit the National Mall.
    Mr. Holt. Ms. Tregoning?
    Ms. Tregoning. Thank you, Mr. Holt. We don't have the 
jurisdictions to plant trees on the Mall, but I can tell you 
that the tree canopy in Washington, D.C. is a very important 
issue for us. And we are, we have efforts underway right now, 
in collaboration with some important non-profit partners, 
including the Casey Trees Foundation, to restore the tree 
canopy in Washington, D.C. because of the many benefits, as I 
believe you know, trees provide, including stormwater 
management, reducing the urban heat island effect, carbon 
sequestration, and simply providing important shade and, and 
traffic calming, if you will, if you want to look at the effect 
that trees have helping to create a street edge along our major 
city streets. So we are certainly very supportive of any 
efforts of the Park Service or our other Federal partners to do 
tree planting, and to maintain and nurture their trees.
    Mr. Holt. Mr. Cogbill?
    Mr. Cogbill. I will respond in three different areas. First 
on the Mall. The National Capital Planning Commission worked 
closely with the construction of the World War II Memorial to 
make sure that the elm roots were trimmed back. That was part 
of the plan, overseen by the Park Service; and that was very 
helpful in keeping those trees alive.
    The same advice had been given to the Vietnam Veterans' 
visitor folks to do the same things, to make sure that we 
preserved those trees.
    With respect to other spots in the city, we were actually 
working, when we did Pennsylvania Avenue and did the 
improvements there, we specifically went out and purchased 
disease-resistant elms so that we would have a much better 
likelihood of them surviving.
    And finally, we did also work with the city in the Casey 
Foundation in doing the tree inventory for the city. And that 
would also be reflected in what we are working with now through 
Capital Space.
    Mr. Holt. Let me just also ask the Park Service, as you 
plan events or issue permits for events, that you steer those 
events that are incompatible with preservation of trees, and 
that might damage the tree roots, to areas, to areas that are 
better suited for those activities.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I really don't have 
any questions. I am here to learn. I don't envy the task you 
have before you in terms of coordinating all the different 
perspectives and demands there are for use of the Mall. It is 
obviously not just a treasure for the District, but it is a 
treasure for the nation. To balance those continued demands is 
no small feat. So I will continue to listen with interest. 
Thank you.
    Mr. Grijalva. Thank you, sir. Ms. Holmes Norton, questions, 
comments?
    Ms. Norton. Yes, thank you very much, Mr. Chairman. Just a 
few questions.
    The Mall has always been crime-free. There was a terrible 
exception a couple years ago when there were a number of 
assaults on the Mall, specifically with handguns, walking and 
talking to the Park Police, one of the bad assets of the 
nation's capitol also as neglected as the Mall itself is. And 
one of the reasons for these assaults is lighting frankly. In 
fact, I think that was the major reason for the assaults.
    Let me ask you about some specific lighting. What was 
astonishing to me, and I think there was some effort made to 
put temporary lighting, was that in this long, beautiful, 
beautiful walkway between the Lincoln Memorial and the World 
War II memorial, it was absolutely dark. Not a single light.
    Now, of course, the assaults didn't happen there. They 
happened where the lights were dim and there were bushes also. 
I hope you are not waiting for the Trust to get lighting on the 
Mall as we get to the tourist season and as we face the 
possibility that we can have more crime going on. Is there 
permanent lighting between those two great memorials?
    Ms. O'Dell. The lighting that was installed right after 
those assaults is still in place, Congresswoman, and it is 
functional. And----
    Ms. Norton. But it is not permanent yet.
    Ms. O'Dell. No, ma'am, it is not permanent yet. We do have 
funding requests in place to create permanent lighting as well 
as improve the landscape between Lincoln and the World War II 
Memorial. But we do make certain that those temporary lighting 
that were installed are functioning.
    Ms. Norton. There was a knifing apparently yesterday at 
Third and Jefferson Street, very close to the Capitol. I don't 
know if those were teenagers or what in the world happened. Can 
you give us a report on that assault?
    Ms. O'Dell. Yes, ma'am. I heard from the U.S. Park Police 
this morning. They were juveniles. The stabbing apparently 
happened at a Metro station, and the victim, who was stabbed, 
chased his assailants into the National Mall, where the Capitol 
Police, the Metropolitan Police and the U.S. Park Police, were 
able to work the incident.
    Ms. Norton. Well, I congratulate them for, that it didn't 
happen right on the Mall.
    And Ms. O'Dell, you have a very heavy burden with respect 
to what are the proposals that you have, that the Park Service 
has come forward with.
    First of all, the first burden is apparently to pave over 
the reflecting pool. Is that right? Is that what you are going 
to do?
    Ms. O'Dell. There is an alternative in one of the plans to 
make the reflecting pool by the Capitol drainable, so they can 
use it for hard space, or it can have water in it.
    Ms. Norton. Well, they do have a reflecting pool, but you 
drain the water out sometimes?
    Ms. O'Dell. Yes, ma'am, that is an alternative.
    Ms. Norton. I think you have to be very careful about that 
alternative. But I am concerned that the ruckus that has been 
kicked up about why they are doing this, why do you wish to 
confine many of these to a drained reflecting pool? And will 
you assure me that the drained water, the water would be 
promptly put back in the reflecting pool?
    Ms. O'Dell. I think a lot of the concern about events was 
articulated by members of the committee, that events are hard 
on the turf. And we are trying to find ways and look at 
alternatives that will preserve the turf, as well as allow for 
large-scale events.
    There have been no proposals in any of the draft 
alternatives that would limit activities to any certain places 
on the ground. We are looking at whether or not a hardscape 
location would be beneficial for events, or whether or not it 
would not be beneficial. And that is why it is a proposal and a 
draft alternative, so that we can hear the public's thoughts 
and comments on that, have it be considered by the planning 
team and determine if there is benefit to create space like 
that or not.
    Ms. Norton. Ms. O'Dell, I couldn't somehow ignore the 
initial upkeep on the turf, but the events that do the most 
damage are the events that tourists, residents, perhaps most 
come to see. What are you going to do? Move the Folklife 
Festival or the Seymour Holmes Decathlon to the reflecting 
pool? That is where the turf--I mean, you have, we can't have 
more than--you tell me, how many demonstrations do we have each 
year that make use of the grounds? Large demonstrations.
    Ms. O'Dell. We have roughly 3,000 events that are permitted 
on the National Mall.
    Ms. Norton. I want to know how many large events.
    Ms. O'Dell. There is probably 10 to a dozen large-scale 
events that happen in----
    Ms. Norton. Well, I think the burden on you is to show 
that. Are you going to move the Folklife Festival or not? Are 
you going to move the Seymour Holmes Decathlon or not? Is there 
a proposal to do that as well?
    Ms. O'Dell. There is not a proposal at this moment in time 
to relocate any of those current events to different locations.
    Ms. Norton. Well, in many running events, they dig into the 
earth. If you want to know what really, in fact, causes damage, 
I think you ought to look there first. I think paving over is a 
very radical thing to do. And, of course, it seems to me that 
if you look at the cost of draining it and putting it back, 
putting the water back, and let me go to transportation if I 
could, Mr. Chairman.
    I would like to ask, I guess this is also, this is for Ms. 
Tregoning, and it is also for you, Ms. O'Dell. We have this 
long alternative bill, of course, that was approved, that was 
the carbon footprint phase. Is that the kind of vehicle we have 
to continue to use for tourists on the Mall, or are you 
considering smaller, perhaps alternative-fuel vehicles among 
the nonstandard?
    Ms. O'Dell. We would be very interested in sustainable and 
green technology as we move forward with transportational----
    Ms. Norton. What is the state of, what is the state of the 
contract?
    Ms. O'Dell. The contract will expire in December of 2008. 
And we are considering what we will consider alternative 
transportation vehicles, and we are in the process of studying 
the transportation needs, working with our colleagues on NCPC 
and the District to determine how better to connect with 
existing public transportation, and how to have affordable 
transportation for visitors who want to get around the Mall. As 
well as maintain our interpretive educational function that is 
part of our current transportation offering.
    Ms. Norton. Ms. Tregoning, these buses, these huge buses 
along the Mall, they park in the Mall, they let people off at 
the Mall. And if you talk with them, they will say the District 
of Columbia doesn't provide them with anyplace to park, so what 
are they to do? What is your response to that? And do we have 
the same problem with the convention, with the opening of the 
new, of the new park and the Capitol?
    Ms. Tregoning. Congresswoman, we are absolutely looking for 
places in the city where we could consolidate the tour bus 
parking, because I think it is problematic in many different 
parts of the city.
    But I will emphasize what Ms. O'Dell just stated, that we 
think that there is an opportunity to provide a lot more 
choices to visitors on the Mall. The Tourmobile has been a 
great thing for people who want to have a tour of the monuments 
and want that interpretive service. But for a lot of visitors, 
especially a lot of frequent visitors to Washington, they don't 
necessarily need to have those interpretive services on every 
trip, but they would love to be able to get to a lot of 
destinations around the Mall, and also to be able to integrate 
those Mall trips and visits to museums with more of an 
experience of city life, at DuPont Circle, or at Georgetown, or 
in Penn Quarter or Gallery Place, or many of the other emerging 
neighborhoods, the Southwest waterfront.
    So we think that there is an opportunity to do a much 
better job of integrating those transportation services. And 
because the 25 million visitors that come to Washington every 
year, a lot of them come from places that don't have our level 
of transportation services. So we are starting something called 
Smart Bikes next month, where you can basically do bike-
sharing, take a bike trip for an hour. That is the perfect way 
to see sites along the Mall.
    So we are really looking----
    Mr. Grijalva. Thank you. Thank you, and I hate to 
interrupt----
    [Electronic interference.]
    Mr. Grijalva.--allocated for questions.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. And let me turn to, I don't have 
any follow-up questions. I will, Ms. O'Dell, submit my 
questions in writing so we can--I didn't have a chance to ask 
you--it has to do with staffing, has to do with park rangers 
and safety issues, has to do with the social and the floor 
plans. There is a mutual exclusivity to them, and I would like 
you to respond to that assertion.
    I don't have any follow-ups. Mine will be in writing. And 
Mr. Bishop?
    [No response.]
    Mr. Grijalva. Does anyone on the panel have any follow-up 
questions?
    [No response.]
    Mr. Grijalva. With that, let me thank you very much, and 
welcome the next panel.
    Ms. O'Dell. Thank you, Mr. Chairman.
    [Pause.]
    Mr. Grijalva. Thank you very much. Let me welcome our last 
panel, and thank you for your patience. Five minutes of 
testimony, and your full testimony will be submitted, will be 
part of the record, as well as any additional material you feel 
you need to provide for us.
    Let me begin with Mr. Arthur Spitzer, Legal Director, 
American Civil Liberties Union of the National Capital Area. 
Welcome, sir. Your testimony.

STATEMENT OF ARTHUR B. SPITZER, LEGAL DIRECTOR, AMERICAN CIVIL 
          LIBERTIES UNION OF THE NATIONAL CAPITAL AREA

    Mr. Spitzer. Thank you, Mr. Chairman and members of the 
committee. We appreciate the invitation to testify here today.
    Our focus really is a much narrower one than those of the 
other witnesses. And I have learned a lot already by listening 
to what they have had to say.
    The Mall is obviously a place of many important uses, and 
has many challenges confronting it for the next several 
decades. We have heard about the need for better access, better 
signage, better restrooms, protecting the turf, better 
lighting. The ACLU certainly has no quarrel with any of those 
needs and goals. Speaking as an American citizen and a local 
resident, I am in favor of all of those things. I am a regular 
visitor to the Mall not only in my capacity as an ACLU lawyer, 
but as a local citizen.
    But our particular focus, of course, is on the use of the 
Mall as a form for free expression and First Amendment 
activity; and our, the point we wanted to emphasize here this 
morning is just that that particular use of the Mall is one 
that must be kept firmly in mind as a primary and 
Constitutionally protected use of the Mall area.
    As the Courts have recognized over many years, the Mall is 
perhaps America's premiere First Amendment forum. Groups of all 
kinds and sizes and shapes have come here, local groups and 
groups from around the country, when they feel strongly the 
need to communicate to their government with their presence; 
not just by letters, not just by emails, not just by hiring a 
lawyer, to be a lobbyist, but to actually come here and 
demonstrate through their presence, through the efforts they 
make through their travel, how important some issue is to them.
    And the Mall is really the place for that kind of activity. 
Of course, Lafayette Park and the White House sidewalk are 
important places, the Ellipse Zone is an important place for 
marches down Pennsylvania Avenue and Independence Avenue and 
other places in the city, all of which are important and 
Constitutionally protected.
    But in particular for the very largest demonstrations, 
ranging from Martin Luther King's march on Washington for jobs 
and freedom back in 1963 with the famous ``I Have a Dream'' 
speech, to the Million Man march in 1995, the Promise Keepers 
Rally in 1997, the Million Mom March against gun violence in 
2000, and even the celebration of the Mass on the Mall by Pope 
John Paul II back in 1979, the Mall is the only place where 
these very large gatherings can be held. And we think it is 
essential that everyone keep in mind the necessary purpose of 
the Mall as a locus for those kinds of activities.
    And I am happy to hear that no one seems to disagree with 
that proposition. Of course, protecting the trees and the turf 
is important, but as Congresswoman Norton just pointed out in 
her questions a few moments ago, First Amendment activity is 
not really the activity that poses the great danger to those 
things, things like the Folklife Festival and the Solar Homes 
Decathlon that lasts for weeks, that put tent stakes deep into 
the ground, that cover large areas of the surface with food 
service areas and dance floors and heavy equipment and 
vehicles, are much more of a challenge.
    I am happy to say that although back in the sixties and the 
seventies there was a lot of conflict between the ACLU, 
representing various demonstrators, and the National Park 
Service about demonstrations in Washington, D.C., in recent 
years the Park Service has been much more hospitable, welcoming 
and facilitating to those kinds of activities. Our experiences 
with them have been good, and we certainly hope and expect that 
will continue. And we certainly hope that the committee will 
keep carefully in mind, as all these processes go forward, the 
important need to protect First Amendment activity in the 
National Mall.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Spitzer follows:]

            Statement of Arthur B. Spitzer, Legal Director, 
      American Civil Liberties Union of the National Capital Area

    Chairman Grijalva and members of the subcommittee:
    Thank you for inviting me to testify today. I am the Legal Director 
of the American Civil Liberties Union of the National Capital Area, 
which is the local affiliate of the ACLU, a nationwide, nonprofit 
organization representing more than 500,000 Americans who believe that 
the protection of civil liberties and civil rights--including the 
freedoms of speech and petition enshrined in the First Amendment--are 
among our Nation's proudest achievements.
    Those achievements are not self-protecting, however. As we have all 
learned, they must be actively guarded against the constant pressure of 
competing interests. As the National Park Service considers a new long-
term plan for the National Mall, it must therefore bear in mind the 
essential role the Mall has played in the life of our democracy as a 
location for First Amendment expression.
    Americans have a constitutional right ``peaceably to assemble, and 
to petition the Government for a redress of grievances.'' As the 
Founders recognized, freedom of speech and the right to assemble 
peacefully are indispensable characteristics of a government of, by and 
for the People. When Americans feel the need to communicate 
emphatically with their government, they have the right to come here, 
to the Seat of Government, to communicate in person, with their bodies. 
No one can deny that an assembly of thousands, or hundreds of thousands 
of people communicates a powerful message about the breadth and depth 
of feeling behind an issue, in a way that letters or e-mails, or even 
hiring a lobbyist, simply do not.
    Public parks in Washington, D.C., and throughout the nation, serve 
as vital public forums for the exchange of ideas and public discourse. 
The Supreme Court recognized that fact, and its constitutional 
dimension, nearly seventy years ago: ``Wherever the title of streets 
and parks may rest, they have immemorially been held in trust for the 
use of the public and, time out of mind, have been used for purposes of 
assembly, communicating thoughts between citizens, and discussing 
public questions. Such use of the streets and public places has, from 
ancient times, been a part of the privileges, immunities, rights, and 
liberties of citizens.'' Hague v. CIO, 307 U.S. 496, 515 (1939). Such 
``traditional public forums'' receive the highest level of First 
Amendment protection: ``In such places, the government's ability to 
permissibly restrict expressive conduct is very limited.'' United 
States v. Grace, 461 U.S. 171, 177 (1983) (striking down ban on 
demonstrations on the sidewalks surrounding the Supreme Court).
    The Nation's Capital is a location where the exercise of these 
historic liberties is particularly appropriate and essential. There is 
both symbolic meaning and functional practicality in the People's 
ability and right to voice their concerns in the place where political 
decisions are made and public policy is enacted and carried out. As the 
United States Court of Appeals for the District of Columbia Circuit has 
noted, ``the general concepts of First Amendment freedoms are given 
added impetus as to speech and peaceful demonstration in Washington, 
D.C., by the clause of the Constitution which assures citizens of their 
right to assemble peaceably at the seat of government and present 
grievances.'' A Quaker Action Group v. Morton, 460 F.2d 854, 859 (D.C. 
Cir. 1971). Indeed, the exercise of these rights in proximity to the 
Capitol or the White House is ``of undoubted importance in the 
constitutional balance,'' for this is ``where a petition for redress of 
national grievances must literally be brought.'' Women Strike for Peace 
v. Morton, 472 F.2d 1273, 1287 (D.C. Cir. 1972).
    Thus, the courts have consistently upheld the First Amendment right 
to demonstrate peacefully in public areas in the nation's capital, 
including the Ellipse, Women Strike for Peace v. Morton; Lafayette Park 
and the White House sidewalk, A Quaker Action Group v. Hickel, 421 F.2d 
1111 (D.C. Cir. 1969); the Supreme Court sidewalk, United States v. 
Grace, supra, the Capitol Grounds where we sit this morning, Chief of 
Capitol Police v. Jeannette Rankin Brigade, 409 U.S. 972 (1972) 
(summarily affirming 342 F. Supp. 575 (D.D.C. 1972)); and of course the 
National Mall, ISCKON of Potomac v. Kennedy, 61 F.3d 949 (D.C. Cir. 
1995); Henderson v. Lujan, 964 F.2d 1179 (D.C. Cir. 1992). The right to 
assemble for First Amendment purposes in these places has been upheld 
against governmental claims that such activity would create a risk of 
terrorism, Lederman v. United States, 291 F.3d 36 (D.C. Cir. 2002), 
impair presidential security, A Quaker Action Group v. Morton, 460 F.2d 
854 (D.C. Cir. 1972), or interfere with the ```peace,' `serenity,' 
`majesty,' maintenance of a `park-like setting,' and the `glorification 
of a form of government through visual enhancement of its public 
buildings.''' Jeannette Rankin Brigade, 342 F. Supp. at 585.
    The National Mall stretches for nearly two miles between the U.S. 
Capitol and the Lincoln Memorial. ISKCON, 61 F.3d at 951. The National 
Park Service refers to it as ``America's national civic space.'' NPS 
National Mall Newsletter Fall/Winter 2007. While many public parks in 
the nation's capital are utilized for the purposes of free speech and 
assembly, the National Mall's size and central location make it ``an 
area of particular significance in the life of the Capital and the 
Nation,'' ISKCON, 61 F.3d at 951, where many of the nation's most 
historic demonstrations have taken place. ``It is here that the 
constitutional rights of speech and peaceful assembly find their 
fullest expression.'' Id.
    The Mall thus has a long tradition of use as a forum for speech and 
assembly by a wide variety of groups with a diverse array of 
viewpoints. A few examples will illustrate this breadth of this 
impressive history.
    In 1939, when African-American Marian Anderson was barred from 
performing at privately owned Constitution Hall, First Lady Eleanor 
Roosevelt and the NAACP organized an Easter Sunday concert on the 
grounds of the Lincoln Memorial. More than 75,000 people turned out to 
hear her sing, one of the largest crowds to have gathered on the Mall 
up to that time.
    In August 1963, the Lincoln Memorial was also the site of the March 
on Washington for Jobs and Freedom, with more than 200,000 participants 
hearing Dr. Martin Luther King, Jr.'s historic ``I Have a Dream'' 
speech.
    In the 1971 ``Mayday'' demonstrations, more than 500,000 Americans 
came to Washington to lobby Congress and protest against the Vietnam 
War. Although the vast majority were peaceful, more than 13,000 were 
arrested--arrests later declared unconstitutional in ACLU litigation. 
Sullivan v. Murphy, 478 F.2d 938 (D.C. Cir.), cert. denied, 414 U.S. 
880 (1973); Dellums v Powell, 566 F.2d 167 (D.C. Cir. 1977), cert. 
denied, 438 U.S. 916 (1978).
    In 1987, 1988, 1989, 1992 and 1996, the AIDS Memorial Quilt was 
displayed in its entirety on the National Mall--the only place it has 
ever been displayed in its entirety. The first display was during the 
National March on Washington for Lesbian and Gay Rights, which drew 
half a million participants. By the time of the last display, in 
October 1996, the quilt covered the entire eastern half of the Mall, 
from the Capitol to the grounds of the Washington Monument. There is 
probably no other public forum in the nation that could have 
accommodated it.
    In October 1995, nearly four hundred thousand African-American men 
gathered on the National Mall for the Million Man March, stretching 
from the foot of the Capitol to the base of the Washington Monument.
    In October 1997, the Mall was as the location of ``Stand in the 
Gap,'' a gathering of perhaps a million Christian men organized by the 
Promise Keepers organization.
    On Mother's Day 2000, an estimated 500,000 people gathered for the 
Million Mom March, organized after the shootings at Colorado's 
Columbine High School, to foster handgun violence awareness.
    Every January 22, the Mall serves as the starting place for the 
March for Life, protesting the Supreme Court's decision in Roe v. Wade, 
410 U.S. 113 (1973). On the other side of the same issue, the pro-
choice March for Women's Lives filled the Mall in April 2004.
    The Mall has even hosted a celebration of the Mass by Pope John 
Paul II on a Sunday in October 1979. Although that event was challenged 
by individuals who alleged that it constituted a prohibited 
``establishment'' of religion, that challenge was rejected by the 
court, which explained that ``the National Mall is a public park that 
has regularly been made available to all major demonstrations 
presenting First Amendment values. That is the non-discriminatory 
policy of the government, evolved in accordance with rulings of this 
court. The government has applied this policy not only to purely 
secular uses, but for uses by religious groups.'' O'Hair v. Andrus, 613 
F.2d 931, 937 (D.C. Cir. 1979). (The ACLU of the National Capital Area 
filed a brief in that case supporting the Pope's right to use the Mall, 
as a public forum.)
    Of course not all demonstrations on the Mall are of the same 
magnitude. Each year the National Mall & Memorial Parks area hosts 
nearly 3,000 events ``ranging from parades to national days of tribute 
and observance to public demonstrations.'' NPS Park Spotlight, 
available at http://www.nps.gov/parkoftheweek/. But every one is 
important to those who participate, and to those who are exposed to new 
ideas and opinions.
    This is a history of which we should all be proud--and a tradition 
that we should all wish to see continue undiluted.
    The National Park Service is charged both with protecting the Mall 
as a place of beauty and majesty, and with protecting its availability 
for use by the American people for First Amendment activities and such 
other uses as Congress sees fit to allow, such as motion picture 
projections, kite-flying competitions, the Smithsonian Folklife 
Festival, and displays of solar houses. We have no quarrel with any of 
those activities, and we certainly have no quarrel with the Trust for 
the National Mall's laudible goals of restoring and preserving the 
Mall's structural elements and creating educational programs and events 
to enhance the experience of visitors. But what the National Park 
Service, the Trust for the National Mall, and the Congress, must not 
ignore is the fact that, of all the activities that take place on the 
Mall, only one is a matter of constitutional right.
    It may be true, for example, that First Amendment assemblies can 
cause some damage to the turf--but certainly not as much as such long-
running events such as the Folklife Festival or the solar homes 
decathlon (see www.solardecathlon.org), which bring tens of thousands 
of people to the Mall for days and weeks at a time, complete with heavy 
equipment, enormous tents, stages, dance floors, food service areas and 
the like. By comparison, a few hours' presence by even hundreds of 
thousands of pedestrian demonstrators is not where the problem lies.
    One option that the National Park Service reportedly has under 
consideration is paving Union Square, at the west foot of the Capitol, 
and making it a special venue for demonstrations. See Michael E. Ruane, 
The Battle to Remold the Mall, Preservation Proposals Spark Debate Over 
Protest Rights, The Washington Post, January 20, 2008. While some 
groups might find such a venue appropriate, others may not--sitting for 
hours on a shadeless concrete pad on a hot summer day seems more akin 
to punishment than to freedom.
    In our view, to the extent that public use of the Mall must be 
limited for the purpose of protecting natural resources, the Mall's 
availability as a forum for First Amendment assemblies must take 
priority. There is no constitutional right to watch movies on the Mall, 
to fly kites on the Mall, to display solar homes on the Mall, or to 
erect food service tents and picnic tables on the Mall. There is a 
constitutional right peaceably to assemble, and to petition the 
Government for a redress of grievances on the National Mall.
    The ACLU has registered as a consulting party in the Park Service's 
planning process, and we hope to participate actively in that effort. 
We know that this subcommittee will continue to provide legislative 
oversight of that process, and we respectfully urge the subcommittee to 
bear in mind, and to communicate to the Park Service, the primary 
importance of the National Mall as the epicenter, so to speak, for the 
American people's exercise of the vital First Amendment rights of 
assembly and petition.
    Thank you for your attention. I look forward to answering any 
questions that you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Judy Scott Feldman, Dr. Feldman, President, National 
Coalition to Save Our Mall. Thank you for being here.

  STATEMENT OF JUDY SCOTT FELDMAN, Ph.D., PRESIDENT, NATIONAL 
                   COALITION TO SAVE OUR MALL

    Ms. Feldman. Good morning, Chairman Grijalva and committee 
members.
    I am Dr. Judy Scott Feldman, founding member and President 
of the National Coalition to Save Our Mall, an independent 
citizens' nonprofit formed in 2000 to provide an organized 
voice for the public in Mall matters.
    In 2007 our coalition created a new nonprofit, the National 
Mall Conservancy, to fill gaps in Mall programming. Our 
inspiration was New York City's Central Park Conservancy, where 
they visited last week.
    Some of our projects include our Friendly Mall Map and 
Recreation Guide. We have copies for each of you, and programs 
including the Mallwide Recycling Program, a visitors center and 
education of tourists.
    I was born and raised in Washington. My father worked in 
the Senate as Staff Director in the Appropriations Committee. 
The National Mall and Capitol Hill are part of my fondest 
memories growing up.
    With the committee's OK, I will submit my testimony for the 
record, and summarize my main points.
    As much as we welcome the flow of attention to the National 
Mall by several NDC planners and the interest and good work of 
Congresswoman Eleanor Holmes Norton, these efforts are 
piecemeal, and lack any true vision for the future of this 
nationally significant symbolic landscape.
    In short, the Coalition is calling for a Congressionally 
chartered commission of prominent Americans to prepare a vision 
and framework plan for the National Mall, updating the 1901-
1902 McMillan Commission Plan, the last time there was a 
serious look at the Mall as a whole.
    Why a commission? The National Park Service claims sole 
jurisdiction for the Mall. But in truth, management is 
fragmented among six agencies, as shown in Illustration 1. 
Oversight in Congress is divided among at least eight 
Congressional committees, diagramed in Illustration 2.
    Meanwhile, D.C. Mayor Fenty, in order for his Center City 
Action Agenda to succeed, needs the Mall to be revitalized in 
new ways, but he lacks any real planning authority for the 
Mall.
    Congress in 2003 declared them all completed, and imposed a 
moratorium, but already has made exceptions, and more may 
follow. The National Park Service calls its Mall plan a vision, 
but it is little more than a typical management plan for grass 
and restrooms.
    Those of us participating in the public consultations for 
this plan have been frustrated by the piecemeal approach and 
the lack of clear scope and transparency in the planning 
process.
    The Coalition believes that the Mall cannot be completed 
any more than American history will have stopped happening. It 
is time for a radical rethinking of the Mall and its future as 
one of our nation's most symbolic landscapes and civic spaces 
in the heart of the Capitol and the nation.
    This is not a task just for government agencies. As 
mentioned, it requires the best creative minds in the country 
to study the problems and needs and explore the exciting 
possibilities for the future. At the turn of the 20th century, 
the McMillan Commission understood what our burgeoning 
democracy needed in its capitol: iconic locations for new 
memorials, public buildings for growing government, a grand 
expanded landscape that projected the image of the United 
States as a world power.
    Today, in an era when Americans don't know our nation's 
history, how can we better utilize the Mall for civics 
education? What is the vision of the Mall that speaks to us as 
a people and a nation at this critical time in our history, and 
in world history? What could a future vision look like?
    The way to protect the Mall is to expand it again. Most 
Americans don't appreciate that the original L'Enfant Mall, 
what we call the First Century Mall, ended at the Washington 
Monument; and that a century ago the McMillan Commission 
expanded the Sexton Century Mall onto landfill, adding the 
Lincoln Memorial and hundreds of acres of public parkland, as 
shown in Illustration 3.
    Today, the Third Century Mall can grow again, perhaps 
incorporating East Potomac Park, L'Enfant Promenade, and other 
public land, and provide new iconic locations for future 
monuments and museums on the Mall. And the Mall can be 
rejuvenated as a grand urban park, connected to the surrounding 
city.
    In Illustration 4 we show a sketched 10-year vision for the 
Third Century Mall that includes a three-mile-long water park, 
new pedestrian bicycle and shuttlebus routes connecting all 
parts of the traditional and expanded Mall, new parking, 
special venues for mega-events, and lively spaces for culture 
and recreation.
    In conclusion, imagine what a Third Century Mall could be 
with the kind of leadership and vision that was applied by the 
McMillan Commission, whose members included Daniel Burnham, 
Frederick Law Olmsted, Jr., Charles McKim, and Augustus Saint-
Gaudens, some of the nation's most creative minds.
    Congress created that McMillan Commission at minimal cost 
to the American taxpayer. We would urge Congress to once again 
provide leadership by creating a Third Century Mall Commission.
    We are pleased, Mr. Chairman, that you have taken a 
leadership role in such an endeavor by having this hearing. I 
will be willing to provide an expanded briefing for anyone on 
the committee who would like to learn more about these ideas.
    Thank you.
    [The prepared statement of Ms. Feldman follows:]

       Statement of Dr. Judy Scott Feldman, President and Chair, 
                  National Coalition to Save Our Mall

    Good morning, Chairman Grijalva and committee members. I am Dr. 
Judy Scott Feldman, chair and president of the National Coalition to 
Save Our Mall, an independent citizens nonprofit organization founded 
in 2000 that works to protect and enhance the integrity of the National 
Mall through education and advocacy. In 2007 we created a new 
nonprofit, the National Mall Conservancy, inspired by New York City's 
Central Park Conservancy, to fill gaps in programming for the Mall's 
open space. With the Committee's okay, I would like to submit testimony 
for the record and summarize my main points.
The Value and Limits of Current Federal and DC Government Planning
    You've heard today about serious problems on the National Mall--
dead grass and crumbling walkways; flooding; sinking seawalls at the 
Tidal Basin; numerous proposals for new museums and memorials despite 
the Congressional moratorium; lack of visitor amenities and adequate 
transportation--and about planning efforts by the National Park Service 
and the National Capital Planning Commission to address these problems, 
as well as Congresswoman Norton's proposed legislation aimed at 
expanding the Mall. And you've learned that Washington, D.C., Mayor 
Fenty's new Center City Action Agenda envisions the National Mall as a 
lively urban park and the centerpiece of a revitalized ``center city'' 
stretching from Downtown to the Southwest Waterfront.
    After years of trying to galvanize Mall planning, we are pleased to 
see so much activity by the federal government and the city. As welcome 
as this is, these efforts are insufficient and piecemeal.
    <bullet>  While the National Park Service claims sole jurisdiction 
for the Mall, in truth Mall management is fragmented among six agencies 
including the Smithsonian Institution, the Architect of the Capitol, 
the National Gallery of Art, the U.S. Department of Agriculture, and DC 
Government (See Illustration 1).
    <bullet>  At the plan review level, the National Capital Planning 
Commission and Commission of Fine Arts try to coordinate but tend to 
defer to each agency's proposals.
    <bullet>  We've identified at least eight congressional committees 
with oversight, and we fear there is little communication among them 
(see Illustration 2).
    <bullet>  Some of these entities work in direct opposition; none 
can agree on the Mall's definition or boundaries; none has the 
authority to cut through the turf wars or the ad hoc development and 
institutional neglect that have long characterized Mall management and 
oversight.
    <bullet>  And yet, visitors don't distinguish between the property 
of the Park Service and the National Gallery, or a Senate or House 
committee. They see the National Mall as a whole, from the Capitol to 
the Lincoln Memorial, as an iconic landscape at the core of the 
American psyche.
    Even with all the ongoing planning activity, we don't see the kind 
of visionary thinking and proposals we believe are warranted for this 
great symbolic landscape.
    <bullet>  NPS calls its plan the National Mall Plan and a 
``vision,'' but in truth the scope is limited primarily to management 
concerns--trees, grass, restrooms--and only to areas under park service 
jurisdiction.
    <bullet>  NCPC's Framework Plan addresses Congress' need for sites 
for future museums and memorials off the Mall--certainly an urgent 
problem as new museum and memorial proposals continue to proliferate--
but not the Mall itself.
    <bullet>  With regard to the memorial siting challenge, we were 
pleased to see Congresswoman Norton take a leadership role in proposing 
to expand the Mall, which we have long advocated. We need to tell more 
of the story of our country, through additional markers, memorials, 
self guided tours, and the like. We simply cannot meet that need on the 
traditional Mall, so expansion is essential. We would go further than 
Congresswoman Norton.
    <bullet>  Mall expansion needs to be about more than identifying 
real estate for new monuments. It goes to questions of how the Mall's 
value to the nation and the City of Washington as symbolic landscape 
and urban park can be improved and enriched. And this is a conversation 
we believe requires Congress to create a new, independent National Mall 
Commission in the tradition of the McMillan Commission a century ago, 
about which we will speak more in a moment.
DC's Center City Action Agenda Needs a Lively Urban Park
    Adding to the complexity of how we look at The Future of the 
National Mall is Mayor Fenty's new economic development action agenda, 
which seeks to create a new, expanded ``center city'' with the National 
Mall as the ``centerpiece.'' The Mall at long last could realize its 
full potential as a lively urban park in the heart of our nation's 
capital.
    But DC government is confronted by a dilemma. Congress has declared 
the Mall a ``substantially completed work of civic art'' and NPS and 
other federal agencies are planning in ways that accept the status quo. 
DC's Center City Agenda can only succeed, however, if the Mall can be 
transformed into a lively urban park that serves and connects 
neighborhoods and commercial areas around it. The status quo won't do. 
The Mall has to be considered more than a national park such as 
Yellowstone. It needs to be reconceived in ways that go beyond NPS 
management policies, with their emphasis on preserving natural 
resources, in favor of a vision for a grand urban park created to serve 
people--25 million visitors annually from around the country and the 
world, as well as local residents and workers. In other words, the Mall 
cannot be ``completed'' if the Mall is to be part of the revitalization 
of the nation's capital.
    Compounding the problem for the city, DC Government is effectively 
shut out of Mall planning. Again with the NPS's latest planning effort, 
its National Mall Plan, there seems a reluctance by NPS to engage the 
District government even as the adjacent neighborhoods, including the 
area around the new ballpark, begin to attract business and new 
residents for whom the Mall will be their ``local'' park. Those of us 
representing citizens groups and nonprofits in NPS's National Mall Plan 
consultation process are finding that the public has little opportunity 
to influence NPS thinking and instead is asked to react to NPS 
priorities (more about the NPS plan below).
A McMillan-type National Mall Commission
    How to get beyond the fragmented jurisdictions, conflicting 
priorities, and policy differences to plan the future of the entire 
National Mall--for the nation, DC, and the American public?
    We believe that only a congressionally chartered commission of 
prominent Americans would be able to prepare a vision and framework 
plan for the Mall as a whole, updating the 1901-1902 McMillan 
Commission Plan, the last time there was a serious look at the entire 
Mall. The commission could work with NPS and NCPC to identify federal 
lands for Mall expansion; collaborate with the DC Government in 
reconnecting the federal and DC interests for the Mall and the city as 
a whole; and consult with the American public--local residents and 
citizens around the country--to find ways to make the National Mall 
newly relevant for all of us in coming years and decades.
The Coalition and Conservancy and a Public Voice
A Citizens' Vision for the 3rd Century Mall
    For several years now, the Coalition has been proposing the 
exciting possibilities for a 3rd Century Mall vision. Because we are an 
independent citizens group, and not bound by Congressional or DC 
policies and priorities, we have been able to focus our attention 
exclusively on the Mall's history, problems, and future. We call our 
concept a ``citizens' vision'' for the 3rd Century Mall.
    We saw that in the years since declaring the Mall ``completed'' in 
2003, Congress has made exceptions to its own moratorium. We realized 
the Mall can't be ``completed''--any more than American history will 
stop happening. As new projects continue to be authorized or proposed--
a Vietnam Veterans Memorial visitor center, a Museum of African 
American History and Culture, and most recently a Latin American 
Museum--and as our society continues to evolve, the call for monuments 
and memorials will continue to grow, and the available space will 
continue to shrink.
    The Mall today has become ``the people's place,'' the stage for our 
democracy. The American people feel that they own it. The Mall is a 
place where our history continues to unfold, where our democracy can be 
continually rejuvenated. It is poised as never before to become a 
lively destination not only for visitors from around the country and 
the world, but also for local residents, office workers, and businesses 
that are bringing new life to downtown Washington and nearby 
neighborhoods.
    We call our concept a ``citizens' vision'' for the 3rd Century 
Mall. It calls for a new vision that enlarges and builds upon the 
historic L'Enfant Plan of 1791 (what we call the 1st Century Mall) and 
the expanded McMillan Plan of 1901-02 (the 2nd Century Mall) and makes 
them newly relevant to the 21st century--the 3rd Century Mall.
    What could that vision entail (see Illustration 3)?
    <bullet>  The Mall can be expanded. Most Americans don't appreciate 
that the Mall originally ended at the Washington Monument, or that the 
Lincoln Memorial is built on landfill. A century ago, the McMillan 
Commission expanded the Mall with landfill, more than doubling its size 
to create sites for the Lincoln Memorial and huge expanses of public 
parkland. Today the Mall can grow again--perhaps incorporating such 
public land as East Potomac Park, Theodore Roosevelt Island, L'Enfant 
Promenade, the South Capitol Street corridor (for the most part, land 
identified by NCPC and NPS for future memorials and museums)--to 
accommodate more museums, more memorials, more civic and recreational 
space.
    What would an expanded Mall look like? We have created a sketch of 
a ``10-Year Vision'' for the 3rd Century Mall that illustrates that 
(see Illustration 4):
    <bullet>  Expansion areas could be connected to the traditional 
Mall and the surrounding neighborhoods in a continuous loop of 
pedestrian, bicycle, and shuttle bus routes, including new bridges 
across Washington Channel, and could encompass a three-mile-long 
waterfront park;
    <bullet>  New circulation patterns could unfold along the Potomac 
route, starting at the Lincoln Memorial at the west and punctuated by 
the FDR, Jefferson, and memorials yet to come, before crossing the 
Washington Channel and ascending Capitol Hill along the majestic new 
Gateway Boulevard;
    <bullet>  Parking, new venues for mega events such as the 
Smithsonian's Folklife Festival, and new recreational space could be 
created beyond the Mall's traditional main vista.
    We realize that our ideas are only the first step in moving toward 
creating a 100-year vision on the scope and scale of the historic 
L'Enfant and McMillan plans. The next step belongs to Congress and a 
3rd Century Mall Commission.
The Limitations of the National Park Service's National Mall Plan
    The National Coalition to Save Our Mall is participating as a 
``consulting party'' in the Historic Preservation Act Section 106 
public consultation for the National Mall, along with several other 
nonprofit organizations and citizens groups. There have been a number 
of public meetings and listening sessions where NPS planners have 
presented and solicited comments.
    The scope of the NPS planning effort has been a matter of some 
confusion and concern among ``consulting parties'' in the Historic 
Preservation Act Section 106 public meetings. It is still not clear how 
NPS's study area relates to the historic L'Enfant Plan and McMillan 
Plan. Instead, NPS focuses on planning for individual ``cultural 
landscapes'' such as the Washington Monument grounds, Union Square (the 
panel at the foot of the Capitol), but not for the National Mall as a 
unified whole based on the historic L'Enfant Plan and McMillan Plan. 
Nor has NPS explained adequately why critical topics such as 
transportation and circulation--right now a major problem for visitors 
and residents alike--and visitor amenities, such as good food options, 
are not included in the scope of study and seem to be determined more 
by the needs of NPS concessionaires than by public need. Several 
participants in the Section 106 process have raised concerns about the 
lack of transparency, insufficient consultation in developing 
alternatives, listening sessions that revealed little about NPS 
thinking and intent, and the piecemeal approach to different parcels of 
the Mall and lack of an overall vision as a whole in the tradition of 
the McMillan Commission. There is concern that NPS's management 
priorities could set in motion changes that instead of showing the way 
to the future could enshrine the status quo and inhibit needed 
improvements.
Creating a Vision for the 3rd Century Mall
    It's easy today to throw around the words ``vision'' in planning. 
But none of the current federal and DC efforts--with their focus on 
natural resources, memorials, and economic development--constitute a 
vision for this iconic landscape. We would like to make our point about 
the kind of vision needed--and why only an independent commission of 
prominent Americans can achieve this--by looking back a hundred years 
to the McMillan Plan of 1901-1902, the last successful long-range plan 
for the Mall.
    The McMillan Commissioners had a clear understanding of what our 
burgeoning democracy needed in its capital city at the turn of the 20th 
century: We needed sites for memorializing our heroes including Abraham 
Lincoln. We needed great public buildings in the Federal Triangle to 
house the growing civil service for our growing country. We needed to 
restore L'Enfant's vision of the Mall as the people's place, by 
clearing away the trees and clutter, and to tie it effectively to a 
system of parks and recreational places throughout the capital city. We 
needed to project an image in landscape, architecture, and majestic 
vistas of our nation as a world power and shaper of history. The 
Commission was blessed with land to grow into through the Corps of 
Engineers project to drain the marshlands along the Potomac shore, 
which resulted in creating hundreds of acres of new land contiguous to 
the original Mall.
    They gave us a plan that we have grown into over the past century 
and that now, once again, needs renewal. We need to seize this 
opportunity. The possibilities for the nation, the city, and the 
American public are exciting.
    This is not a task to be assigned to existing government agencies 
each with its own parochial interests and turf. As in 1901, it is the 
task of assembling a few of the best creative brains in the country to 
study the problems and--with assistance from federal and DC agencies as 
well as the public--plan how can best expand and rejuvenate our central 
public space.
    Here are some of the questions the new commission might want to 
explore that would help shape the Mall during the next century:
    <bullet>  Our country continues to produce national heroes and to 
honor them on the Mall, including the recent FDR Memorial and the 
coming MLK Jr. Memorial. In what places could we honor yet unknown 
greats of the 21st century?
    <bullet>  We are suffering collective amnesia about our national 
history, especially among young people. How can we develop sites and 
programs that better utilize the Mall--both the traditional Mall and 
expansion areas--for civics education and activities?
    <bullet>  If the federal agencies continue to decentralize and move 
away from the Monumental Core area, what kind of new uses could the 
Federal Triangle (where GSA is already aware of vacancies) and other 
buildings serve?
    <bullet>  As the city's urban core expands southward towards the 
waterfront, the Mall will be come the center of an increasingly dense 
residential and commercial city filled with citizens who will want 
places to meet and recreate. How can we develop a 3rd Century Mall that 
meets the needs that will arise as the population and function 
diversifies?
    <bullet>  We have never fully developed our riverfronts. As we deal 
with global warming, how can we best deal with potential flooding while 
making the riverfront more of a destination? Half the Mall already lies 
in a flood zone. We are blessed with hundreds of acres of largely 
undeveloped land left over from the Army Corps of Engineers landfill 
project. How can this land best be used?
    <bullet>  Most important, our nation's role in the world has 
changed dramatically since 1902 and the last vision. How can the 
National Mall best symbolize our concept of who we are as a people and 
nation and where we hope to be a century from now?
    When Congress declared the Mall ``a substantially completed work of 
civic art'' with the intention of protecting the Mall from 
overcrowding, it failed to couple its action with a program for long-
term expansion as the McMillan Commission did. Now Congress needs to 
take leadership once again and charter a new McMillan-type commission 
to imagine how we can best imagine the future of our National Mall, to 
allow the Mall to grow creatively to serve its role as a stage for our 
ever-evolving democracy.
The National Mall Conservancy Filling Gaps
    The National Coalition to Save Our Mall and the National Mall 
Conservancy are dedicated to helping fill the existing gaps in Mall 
management and programming and in developing a structured public voice 
to make this happen.
    The National Mall Conservancy is working with government agencies 
and other citizens groups on a number projects:
    <bullet>  There is no comprehensive recycling program on the Mall, 
each agency and building does its own thing. We've studied this and 
I've approached the Federal Environmental Executive about taking this 
on for the Mall as a whole
    <bullet>  Transportation and circulation are limited. Tourmobile 
provides interpretive tours at $25 a day for an adult but the 
Circulator runs only during the week and peak hours and doesn't serve 
the western Mall area. Nor does Metro with bus service. A graduate 
course in transportation policy planning at George Mason University 
undertook for us and just completed a review at our request and there 
are serious gaps. It is not easy, especially for older people, 
children, and those with disabilities to get around the long expanses. 
The GMU report and PowerPoint presentation are posted at http://
policy.gmu.edu/programs/programs_tpol_practica.html>http://
policy.gmu.edu/programs/programs_tpol_practica.html
    <bullet>  There is no Mall visitors' center, which we think could 
be nicely provided in the Smithsonian's Arts & Industries Building, 
with information, maps, a police substation for security, snacks, 
restrooms. (I give tours on the Mall and the most frequent question I 
get is where are the restrooms.)
    <bullet>  Until the Coalition produced a map, there was no overall 
map and historical guide. We prepared the first ever recreation guide 
to the Mall as there is confusion over who has jurisdiction over the 
ballfields that are well utilized by DC residents for softball, soccer 
and so on.
    <bullet>  Sustainable landscaping will be critically important in 
the future and we've been in conversations with the USDA which is 
moving forward with a creative sustainability landscape for its 
building on the Mall, conceived as an open-air classroom of USDA 
policies for stormwater, recycling, sustainable plantings, and so on.
    <bullet>  While new FEMA flood maps have spurred DC and federal 
agencies to work on urgent flood control problems, the challenges of 
stormwater and flooding will require sustained, long-term creative 
solutions. We have compiled an extensive bibliography of resources that 
can be useful in future development of a larger regional approach to 
flooding and global warming.
What Stands in the Way?
    When I present these ideas to groups throughout the city and 
region, audiences regularly ask me, ``What's standing in the way?'' I 
can speak from experience that the public, and even many federal and DC 
planners, are excited by our vision and the great opportunity for 
creating a 3rd Century Mall vision.
    But let's not fool ourselves. This will not be easy. Before a 
Senate hearing on The Future of the National Mall in 2005, Chairman 
Craig Thomas said he intended to create a Mall Commission. But he then 
changed his mind after the NPS, NCPC, and Commission of Fine Arts 
discouraged him, claiming that it would simply add another layer of 
bureaucracy. And besides, they would do the visionary planning 
themselves. Three years later, we see that's not so.
    The need is more urgent than ever. Sustainability is a top priority 
but no one of the agencies can tackle it adequately, nor can their 
collective efforts rise to the level needed to confront the rising 
problems of flooding and stormwater. Sinking seawalls at the Tidal 
Basin can be repaired, but we need to rethink the whole character of 
the hundreds of acres of landfill along the shores of our rivers.
    Moreover, DC urgently needs a voice in shaping the Mall of the 
future, as do local residents and the American public. Only Congress 
can make that future happen.
Imagining a Visit to the 3rd Century Mall
    Imagine what the 3rd Century Mall could be with the kind of 
leadership and vision that was applied by the McMillan Commission--
whose members included Daniel Burnham, Frederick Law Olmsted, Jr., 
Charles McKim, and Augustus Saint-Gaudens--some of the nation's leading 
designers. In case you are not aware, the McMillan Commission conducted 
its research by touring some of the great urban spaces and parks of 
Europe. I'd happily join in any future research endeavors of this sort.
    Seriously, with more than half the Mall built on landfill and 
suffering effects of flooding and failing infrastructure, we need to go 
beyond repairing problems to rethinking them. The Mall could be a 
showcase of the most innovative and state-of-the-art approaches to 
modern challenges of climate change. It could be transformed into an 
open-air classroom that engages residents and visitors of all ages, 
with demonstration projects for restoring turf grass, native 
vegetation, historic streams and wetlands, as well as recycling and 
whatever new solutions emerge in coming years and decades. Mall 
expansion could include rethinking and reconfiguring the landfill on 
both sides of the Potomac and Anacostia rivers.
    I would be willing to follow up with anyone on the Committee who 
would like to learn more about these ideas.
    Attachments: 4 Images
    [GRAPHIC] [TIFF OMITTED] T2475.001
    
    [GRAPHIC] [TIFF OMITTED] T2475.002
    
    [GRAPHIC] [TIFF OMITTED] T2475.003
    
    [GRAPHIC] [TIFF OMITTED] T2475.004
    
                                 
    Mr. Grijalva. Thank you very much. Our final witness, John 
Akridge, III, Chairman, Trust for the National Mall.
    Mr. Akridge.

STATEMENT OF JOHN E. ``CHIP'' AKRIDGE, III, CHAIRMAN, TRUST FOR 
                       THE NATIONAL MALL

    Mr. Akridge. Mr. Chairman and members of the Subcommittee 
on National Parks, Forests, and Public Lands, I want to thank 
you for the opportunity to come and speak with you today and 
tell you about the Trust for the National Mall.
    My name is Chip Akridge. I am Chairman of Akridge, which is 
a local commercial real estate development and property 
management fund. But I am here today in my capacity as Chairman 
of the Trust.
    We have some written testimony, and I trust it will be 
included in the record.
    I am a Tennessean, I am a Vietnam veteran. And I also go 
jogging. I am a runner, I jog on the Mall, and it is a hallowed 
space. I don't know if any of you have been down there with the 
sun coming up, moving west across 5th Street and watch the sun 
come up over the Capitol, it makes the hair on the back of my 
neck stand up. I am proud to be an American, proud to be here. 
We could have been born anywhere in this world, but we were 
born here in America, with the rights to choose our successes 
as we have been able to do.
    But I don't know if any of you have been down to the Mall 
lately, in the past few days, past year, or whatever. But I am 
here to report to you that it is a disgrace. It is in a state 
of disrepair.
    Do you all have these--you should have a copy of these 
books we have passed out. I wouldn't mind you flipping through 
those as I continue my testimony, because a few pictures are 
worth a million of my words.
    In fact, there is a $350 million deferred maintenance 
backlog on the Mall, which is part of the National Park Service 
nationwide system's $5 billion deferred maintenance backlog, 
which I am sure you gentlemen are familiar with those numbers.
    This backlog does not include any physical improvements to 
the structure down there to handle the 25 million people who 
currently visit the Mall. That is more people than Yosemite, 
Yellowstone, and the Grand Canyon, the next three most busy 
parks together. The park as it was originally designed, and has 
been improved over the years, is not capable of handling the 
people that is down there.
    It also doesn't include any educational programs to educate 
people as to what the American experience is and what freedom 
is all about in this country.
    I think that the Park Service has done a good job with the 
budget that they have had, the limited budgets that they have 
had, to keep them all in as good a shape as it is. But again, 
the budget has just been woefully inadequate.
    I use as an example the Washington Monument. If you look at 
that monument, it has undergone renovation recently, primarily 
for security reasons; but at the same time, that space was 
upgraded to world-class space, which is what we are looking to 
try to accomplish for the entire Mall.
    While this space may be somewhat backyard to us here in our 
backyard in Washington, it is America's front yard, and the 
Park Service cannot, we don't believe, do this alone through 
public funding. So we felt that a created public-private 
partnership was a potential solution to solving this funding 
gap.
    We looked around the country and found the Central Park 
Conservancy in New York which 30 years ago took Central Park, 
which is an 800-acre park--the north half was closed because of 
crime, the entire park was greatly run-down--and they have 
raised about $500 million and brought that park back to world-
class status.
    We formed the Trust with the idea of doing basically the 
same thing to the National Mall. Our goal is to produce the 
best park in the world, where visitors have the best park 
experience in the world. It should be the best of the best.
    We held our first public event on May 8, just about 12 days 
ago, where 500 like-minded individuals turned out and 
contributed over $600,000 toward this cause, which shows you 
there is a willingness in the American public to support this 
effort.
    Last November Secretary Kempthorne rolled us out as the 
sole fundraising partner for the National Park Service for the 
Mall. Since then, Secretary Kempthorne and Director Beaumont 
have been great supporters of that partnership, and it is 
flourishing.
    You just heard Superintendent O'Dell testify as to all the 
efforts that are going on in terms of planning, and I won't go 
back into that. But we estimate that $500 million is needed for 
the Mall today: the $350 million I already mentioned, probably 
$100 million for the beefed-up infrastructure, and $50 million 
to establish educational and interpretive programs to tell the 
story of what American democracy is all about, to our visitors 
and to our children.
    Our mission is simple. It is to support the National Park 
Service mission, and I quote, ``to preserve and restore the 
natural and cultural resources and values for the enjoyment, 
education, and inspiration of this and future generations.''
    As I said, the process which is underway, I will not 
reiterate that there were, you know, over 500 professionals 
would have reviewed the plan before it is approved, and over 
23,000 Americans have already made their views known on what 
should be done with the plan. The publishers made known that 
their three main issues they are interested in, one was First 
Amendment rights, which was just spoken to, and freedom of 
expression. There was increase the number of toilets and food 
facilities. They want to improve the fiscal meaning of the 
space.
    This space is the staircase of democracy through the 
speech, leadership, sacrifice, and heroism. It is America's 
front yard. It needs our help, and it needs it now.
    Thank you.
    [The prepared statement of Mr. Akridge follows:]

         Statement of John E. ``Chip'' Akridge, III, Chairman, 
                      Trust for the National Mall

    Mr. Chairman and members of the Subcommittee on National Parks, 
Forests and Public Lands, I am Chip Akridge, Chairman of Akridge, a 
local commercial real estate development and management firm.
    I am here today in my capacity as Chairman of the non-profit 
organization, the Trust for the National Mall. The Trust for the 
National Mall is a non-profit organization dedicated to supporting the 
National Park Service mission to ``preserve--unimpaired the natural and 
cultural resources and values ``for the enjoyment, education, and 
inspiration of this and future generations.'' As the official funding 
partner of the National Park Service for the National Mall, the Trust 
has a long term goal to raise over $500 million to help return the Park 
to a landscape of extraordinary beauty and to better connect visitors 
to its unique and important history as the platform of our democracy.
    After years of deferred maintenance on the National Mall, the 
current cost of restoring ``America's Front Yard'' is a staggering $350 
million. This figure does not include physical improvements to handle 
the current volume of 25 million annual visitors or money for 
educational programs.
    The Park Service cannot restore ``America's Front Yard'' with its 
current budget. This urgently needed work can be funded and completed 
only through a creative public-private partnership, which is what the 
Trust for the National Mall is proposing.
    Over the last twenty years, I've enjoyed regular jogs through 
downtown D.C. and across the National Mall. I started this routine to 
check on my properties throughout the District and ended each run with 
a scenic reminder of why I love this city, and a reminder of why I am 
proud to be an American.
    While I would look at the amazing icons on the National Mall: the 
sun coming up over the Capitol, the flags circling the Washington 
Monument, and the Jefferson, Lincoln and war Memorials, I rarely looked 
at the National Mall as a property manager. Over four years ago, 
someone challenged me to look closer at the condition of the park, and 
sadly what I saw did not make this American proud. The National Mall, 
``America's Front Yard,'' was and is a disgrace.
    So with the help of several Washingtonians, I founded the Trust for 
the National Mall in an effort to restore the National Mall to a place 
of beauty befitting our nation's Capitol. We knew that we wouldn't be 
alone in our efforts since there were many people in this community who 
cared about this sacred and historic space. We were right.
    We've modeled the Trust after the Central Park Conservancy in New 
York. Thirty years ago, half of Central Park was closed and its 800 
acres were completely run down. In 1980, Mayor Koch asked Bill 
Beinecke, former Chairman of S&H Green Stamps, to lead a private effort 
to restore that park, and a successful public-private partnership was 
born.
    More than 25 years later and with close to $500 million raised, 
Central Park is truly a world-class urban space. We hope to follow 
their lead, raise a similar amount, and restore the National Mall to a 
place of beauty and pride for visitors and future generations.
    Last November, the Trust held its national launch when Secretary of 
the Interior Dirk Kempthorne announced the Trust's designation as the 
official partner of the National Park Service (NPS) to raise private 
funds to be added to Federal funds for execution of the National Mall 
Plan. Under the leadership of the Secretary and NPS Director Mary 
Bomar, our partnership is flourishing. They, along with the new 
National Mall and Memorial Parks Superintendent, Peggy O'Dell, truly 
see the value in creating productive public-private partnerships to 
restore our national parks and have been terrific leaders in moving the 
Trust forward because they are committed to this American treasure.
    Today, with budget cuts and a deferred maintenance bill of $5 
billion in the NPS system, the work cannot be done by the government 
alone. The National Mall carries a $350 million deferred maintenance 
deficit, and with 25 million annual visitors (more visitors than 
Yellowstone, Yosemite and the Grand Canyon parks combined) the decay 
from this wear and tear is massive and continues to grow. The NPS has 
done an outstanding job with the funds available to them, but those 
funds have been woefully inadequate to enable the NPS to properly 
maintain the park.
    The National Park Service is working diligently pursuing the 
critical work of preparing the National Mall Plan which will determine 
the future of the National Mall and will be the blueprint for our work. 
The NPS is working with over twenty cooperating agencies and thirty 
consulting parties to prepare the National Mall Plan. In all over 500 
professionals will have reviewed and commented on the plan by the time 
it is approved. Additionally, during the plan scoping phase NPS held 
press conferences, issued media releases, published a newsletter 
requesting participation, and held a symposium and public meetings. 
More than 23,000 Americans from across the country have submitted their 
comments to the plan. The most important messages from the public have 
been to protect the space for First Amendment rights and freedom of 
expression demonstrations, increase the number of toilets and food 
facilities, and improve the physical beauty and quality of the area.
    The National Park Service leadership and staff have taken very 
seriously the guidance and vision of these organizations and the 
thousands of Americans in developing the final plan. The NPS is 
diligently pursuing the critical work of preparing the National Mall 
Plan which is due to be released at the end of 2008 and will serve as a 
blueprint for the NPS and the Trust's work.
    In addition to the estimated $350 million needed for the deferred 
maintenance backlog, approximately $100 million is needed for 
infrastructure improvements like repairing or building additional food 
and restroom facilities and $50 million is needed for educational 
programming, to tell the story of our country's rich history found in 
the park to all its visitors.
    The National Mall, the 700-acre stretch of hallowed ground located 
between the Capitol and the Lincoln Memorial and from Constitution 
Avenue to the Jefferson Memorial, has come to be known worldwide as a 
symbol of democracy and America's heritage. It encompasses the strength 
and proud history of our nation, symbolizes the democracy that our 
forefathers worked so hard to secure, and memorializes the sacrifices 
of so many who have given their lives to preserve. It is ``America's 
Front Yard.''
    Our project is unique: restore and preserve one our greatest 
American icons for all visitors and future generations. For some of us 
the National Mall is our backyard, but its real reach and purpose is 
without boundaries. Because of this, we know our efforts must be far-
reaching in scope and require the support of volunteers ranging from 
gardeners and academics to individual and major donors from across the 
country. Our efforts will include outreach and education to all 
Americans, including students and parents, community leaders and 
patrons, educators and historians.
    As a real estate developer and property manager, I know what an 
immensely difficult and ongoing task it is to maintain the National 
Mall in world-class condition given the enormous usage of the space. 
But its purpose is to honor our forefathers and all the people who have 
made our country what it is today. It must be fixed and maintained and 
protected for First Amendment use in perpetuity.
    We believe--and are certain that you will agree--that the National 
Mall is one of the Nation's chief cultural assets. There is no other 
place in the United States that celebrates our democracy, freedom of 
speech, leadership, and heroism like the National Mall, America's Front 
Yard. And it needs all of our help now.

[GRAPHIC] [TIFF OMITTED] T2475.005

                                 
    Mr. Grijalva. Thank you. Let me thank all the panelists.
    Mr. Spitzer, you know, your idea, or the concept of 
funneling off free speech activities into one site-specific 
venue I agree is unacceptable. And that shouldn't be the intent 
of the planning, and that shouldn't bog down what I think is a 
very important planning process by raising that issue.
    Let me ask you, the discussion of providing amenities--
i.e., speakers, all those in various locations along the mall 
to facilitate entertainment, activities, and possibly also 
demonstrations--what is your reaction to that concept?
    Mr. Spitzer. I think that could be a very positive thing, 
Mr. Chairman. I think making the Mall a more user-friendly 
place for demonstrators, as well as tourists and local 
residents, I think that those are not conflicting goals 
necessarily at all.
    I think many demonstrators would appreciate having a prime 
location, with the Capitol Dome in the background of their 
speaker stand for their own viewing, and for photographs and 
television; and having restroom facilities and benches and 
water and electrical outlets for their use. I think all those 
things could be very positive things, which could obviously be 
available for non-demonstrators at other times.
    We are not necessarily opposed to the possibility, and I 
gather it is only a possibility, of having a multi-purpose use 
for the Union Square area at the foot of Capitol Hill. I don't 
know what kind of costs would be involved in having that 
reflecting pool being a drainable and refillable area; that is 
obviously something that others can study. As long as 
demonstrators are not being told here is your sort of 
demonstrator-specific and that is where you have to go.
    Many demonstrators, especially some of the smaller ones, 
might be happy to have such a location.
    Mr. Grijalva. Thank you. Dr. Feldman, quickly, if I may, an 
example of why you feel that the public has had little 
opportunity to influence National Park Service thinking on this 
National Mall Plan. And just quickly follow up why the 
Commission idea would deal with that issue of lack of 
participation in a much broader way. You mentioned that 
McMillan Commission idea.
    Ms. Feldman. The National Coalition to Save Our Mall, we 
have been involved in consultations, public consultations, with 
the Smithsonian, the Architect of the Capitol, the Park 
Service, and other agencies for the past eight years. And we 
can compare and see how the different processes work.
    First of all, we represent a public voice, not an agency 
voice. So in all cases, we are dealing with, based on five 
public forums we had in 2004, a point of view that is a little 
different from the priorities of the government agencies.
    In the case of the Park Service, we have been participating 
in the Mall planning issues. But what happens is the Park 
Service puts together information and matrices and 
alternatives, but none of us participating for nonprofits 
really had a clear understanding of where the choices are 
coming from.
    So we have tried, and we are doing, we are participating. 
Five thousand comments have come in from others, as well as 
from us. But when we see the matrix, then we do not see the 
issues, primarily transportation, good food, and the bigger 
question of the Mall as a whole, which is not being addressed 
by the Mall Plan. That, I think, is why the Mall Commission 
idea comes out.
    In 1899 the Mall was divided up into different areas under 
different jurisdictions, and even some of the land had been 
sold off to private interests. They were confronted, the 
Congress, the Senate Park Commission, and the McMillan 
Commission were confronted with very similar issues. They 
needed a place for the Lincoln Memorial. They needed 
essentially Mall expansion. They needed to clean up what was 
already there. But they also needed to consolidate all the 
different planning that was going on by different agencies, 
because the Mall is a symbol as a whole of the nation.
    And we were looking at then and what we are looking at now 
is government agencies are doing their planning, and that is 
fine; but their priorities are agency priorities. Whereas the 
big question of the Mall, as a symbol of our national identity, 
and a place where our monuments should continue to unfold, we 
shouldn't be forcing people off the Mall, in our view.
    Mr. Grijalva. Thank you. And let me indulge in extra time 
so I can finish my question.
    Mr. Akridge, you stated what is and was a disgraceful 
condition of the Mall that you mentioned in your testimony. To 
stop this continuing disgracefulness, for lack of a better 
word, and to change that, what kind of activities do you feel 
are leading to creating the disgraceful condition? Is it the 
intensity of visitation and activity on the Mall? Is it the 
lack of proper resources for the maintenance, upkeep, safety 
issues?
    And you know, I understand the private sector contribution, 
how important that is going to be. Do you feel, you know, they 
are not glamorous--the sprinkler system, turf restoration, 
restrooms--they are not the glamorous things that people like 
to put their names on when they donate. But nevertheless, those 
two questions in terms of if you would quickly respond to them, 
I would appreciate that.
    Mr. Akridge. Yes, Mr. Chairman. You need a roadmap to get 
from where we are today to the best park in the world, that is 
a fact. And we see the National Mall Plan, which is presently 
being undertaken by the Park Service, as producing that roadmap 
as a result of that process.
    And I think that all the issues that you, which you 
mentioned, the infrastructure just seems inadequate to handle 
the people, the uses out there are being looked at as to how to 
manage those. All aspects of the operation of the Mall are 
being looked at in this plan.
    And we see that the plan, once finished, which we hope will 
be finished late this year or next year, will provide that 
roadmap to bring us from our present situation to world-class 
status.
    Mr. Grijalva. Thank you, sir.
    Mr. Akridge. Yes, sir.
    Mr. Grijalva. Mr. Bishop.
    Mr. Bishop. Thank you. I have no specific questions, but 
Mr. Akridge, I certainly want to thank you for the information 
you provided. And I hope it is within our ethics standards if I 
keep this? OK, good.
    Dr. Feldman, I appreciate the written testimony.
    Mr. Spitzer, I was especially impressed with the passionate 
defense you had for multiple use on the Mall. Lest your 
organization be considered hypocritical in any way, I certainly 
hope you have that same passionate defense for multiple use of 
public lands in the West as you do here in Washington, D.C. And 
also the passionate defense for all Constitutional rights in 
public spaces. So I appreciate your testimony from all of you.
    Mr. Grijalva. Thank you. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I guess, Ms. Feldman 
and Mr. Akridge, this question is for you.
    What do you have the most anxiety about, in terms of 
solving the problem? I mean, is it trying to coordinate 
competing visions that all these different groups have for the 
Mall? Is it trying to coordinate competing jurisdiction and 
authority that the six or more different entities you referred 
to have? Is it worrying that the resources won't be there in 
the end, even for a coordinated vision that is eventually 
rolled out? I mean, is it a combination of all three?
    But what are the thing that you see as the most significant 
obstacle to getting moving on this?
    Ms. Feldman. I think what we have found over eight years, 
it has been fragmented management and jurisdiction. Even if a 
government agency expresses a certain amount of interest, then 
there is a committee in Congress with oversight of a different 
agency that sees this as potentially impinging on their 
authority.
    We are concerned with ways, already in a Senate hearing in 
2005, that essentially went like today. The government agencies 
all said things were taken care of that we are planning. This 
is three years later, and everyone is planning.
    But again, we are dealing with fragmented priorities. And 
even though everyone is planning, everyone is staying to their 
turf and planning with their own priorities. And our fear is 
that with the Latino-American Museum coming, with at least 30 
museums and other projects coming, we can't keep saying no, the 
Mall is finished, we are just going to fix the grass. We have 
to say our vision has always been evolving.
    We need to rise above the division and above the 
fragmentation. We really have to see the changes required that 
we have to look forward, and we have to give our children that 
doesn't say they don't have a place in the Mall.
    It is hard because everyone is protecting their turf. But 
as the public keeps saying, the Mall is not a collection of 
agencies. To the American people it is this grand symbol of who 
we are. We want it to remain growing, evolving, beautiful, and 
inspiring.
    Mr. Sarbanes. Mr. Akridge referred to what happened with 
Central Park as kind of a model of what you can do, but I don't 
know how many different jurisdictions are involved there. I 
presume less than what you are dealing with here, so that may 
not be the best model from a practical standpoint.
    Ms. Feldman. Well, we just went up last week and met with 
both Adrian Benepe, the head of the New York City Parks, and 
the President of the Central Park Conservancy, Dr. Blonsky. 
They certainly sympathize with our condition in Washington 
because we have so much divided management.
    But what they found is what the conservancy did is, it is a 
citizen-based independent group originally. It was not tied to 
any one agency. And so it could create a constituency that 
wasn't tied to one entity or another, collect money--and of 
course, they have a lot more on Fifth Avenue than we may have.
    But because it was citizen-based and public-spirited, the 
city--and it took 20 years--but the City Parks Department 
eventually made a contract with the conservancy as the 
citizens' voice.
    And so yes, that is one reason why we created our 
conservancy, to be an independent, unconnected citizens' voice. 
And eventually, you know, taking baby steps now, but we are 
doing projects. And the projects we are working with on the 
USDA on the sustainable landscape, and George Mason University, 
a study on transportation.
    We are trying to build a citizens' constituency that also 
the government can talk to, and as another voice beyond the 
Federal agencies in the city.
    Mr. Sarbanes. Mr. Akridge, do you have a comment on 
obstacles?
    Mr. Akridge. Yes, I think that is what my biggest fear was 
in terms of getting on with this. And that is, is it simply 
comes along that knocks back the conclusion of the National 
Mall Plan.
    We need to complete this plan. I think that you have heard 
we have certainly seen unprecedented cooperation amongst these 
various agencies, and I think there is a strong desire amongst 
the agencies to come up with a single plan that takes into 
account the various organizations' interest to the best that 
they can.
    Obviously there has to be compromise on a lot of different 
fronts. We have a lot of different entities involved. But this 
plan explaining your place, what roadmap we need to get started 
on bringing the Mall back to world-class status needs to begin. 
And it cannot begin until it is approved.
    So my biggest fear is that something will come along to 
knock that approval process back or to delay it, so that we 
can't get started.
    As in any 30-year plan, it is not going to be written in 
stone. Obviously the plan will be reviewed on a periodic basis 
against the goals and against the changing times to make sure 
that we are doing the right thing. Thirty years ago we didn't 
have computers, I mean, so the idea has to be a living plan; I 
think it will be.
    So yes, my biggest concern is that, that we don't get 
started.
    Mr. Sarbanes. Mr. Chairman, also a real quick question 
about this. Would you hazard a guess, or try to quantify, how 
much of what we see and hear that was disgraceful would you say 
would be different if the $350 million backlog of repairs and 
other infrastructure, upgrades and other things which you 
alluded to, had been dealt with?
    In other words, if there was $350 million that had gone 
into the Mall when it should have, would you say, you know, 70 
percent of what you are depicting here would be different? Or 
would there only be 50 percent because there are other things 
at work? Can you just----
    Mr. Akridge. I would say the large majority of it. Probably 
the one thing that would not have gotten done, and it is not in 
that $350 million, is the seawall and the tidal basin at the 
Jefferson Memorial, which has just recently come into view as 
being a big problem in and of itself.
    But I would say the majority of the things that you see, 
you know, the Constitution Gardens, which was completed 30 
years that was mentioned earlier, there has been virtually no 
maintenance done on that particular area of the park in 30 
years.
    Mr. Sarbanes. OK, thank you.
    Mr. Grijalva. Congresswoman, any questions, comments?
    Ms. Norton. Thank you, Mr. Chairman. I have three 
questions. I will try to stay within----
    Mr. Grijalva. That is fine.
    Ms. Norton. I want to thank all three of you. This is an 
important testimony for all of us to hear.
    Mr. Akridge, I am going to just say you are performing a 
magnificent public service. Mr. Akridge has led a very public-
spirited development in the District of Columbia. But to take 
this on, which is essentially the work of government itself--
and that is what you are doing. You seem to be dealing with the 
maintenance and the kinds of backlogs that one would expect if 
the Park Service had money, it would have done itself.
    And I see the importance, because I am a race-walker along 
the Mall. I love it, even in its decrepit condition. Even 
though I agree with you, it is a disgrace.
    Mr. Akridge, you heard the testimony of Ms. O'Dell. It 
looks like a lot is going to depend on the Trust. I mean, I was 
flabbergasted to hear that, you know, with signage, for 
example, we are waiting for the Trust. We are waiting for the 
Trust. And we are not waiting for Godot, but the notion is, you 
know, all of this is going to have to be done with the Trust.
    So I therefore must ask you what the timetable is for 
raising funds; when it is raised, can it be disbursed as 
raised? Or how does the fundraising mechanism work, given the 
extraordinary means even for basics of the Park Service?
    Mr. Akridge. Well, it is a two-part question. The signage 
issue was given to us actually by, it was this committee as 
part of the Centennial Challenge, with the public-private 
disbursement, $1.1 million from the Federal government, $1.1 
million from the private sector. And we were given the award 
three weeks ago I guess now.
    We have already begun raising the money, and we will have 
money raised by the end of September, the end of this fiscal 
year, which I don't see a problem with that.
    As far as other members are concerned, the Park Service is 
not going to spend money on the Mall until the Mall plan is 
finished, is the short answer to that question. So once the 
plan is finished and we are implementing the plan, which is----
    Ms. Norton. Well, can it wait until you raised all $500 
million?
    Mr. Akridge. No, it can be expended as raised.
    Ms. Norton. If I could just put in a plug for restrooms. I 
just think that is the most basic amenity. And if the museums 
aren't open, and they are always crowded, on our race-walks, 
then----
    Mr. Akridge. Part of the plan is to prioritize the needs.
    Ms. Norton. I am just asking that it be given priority. I 
don't know what you do with a kid when he says, Mommy, I have 
to go. Where, if the museums are closed?
    I have a question for each of you. I just want to be 
clearer on Mr. Spitzer. You see, I have two kinds of 
objections. One, don't take away our reflecting pool; if you 
do, you are going to have each time put it back. And of course, 
any First Amendment objections that you have, I would be 
inclined to have.
    This is the place in the country, the premiere place where 
American citizens of every background come for their own use 
and protests. And you have heard the testimony. She was telling 
only about 10 major events. And I appreciate the difference 
between the other events, which of course are not First 
Amendment at all, but which people, like the Folklife Festival.
    She says in her testimony, Ms. O'Dell says that they are 
not considering any alternatives that are not in keeping with 
the First Amendment and Federal regulations. And there was 
perhaps some confusion between protests and demonstrations, and 
you would be able to protest anywhere.
    And of course, as you know, under the First Amendment, a 
demonstration could always be, you can find time, place, et 
cetera.
    Do you think that you and the Park Service are going to be 
on the same page when this is all done, and that your concerns 
have been addressed?
    Mr. Spitzer. Well, I hope we will be on the same page when 
this is done. I guess that remains to be seen.
    But what I have heard and what I have heard in some private 
discussions before today's hearing makes me more optimistic 
about that then I was when I read some stories in the paper a 
few months ago.
    There doesn't seem to be any desire to confine First 
Amendment activity to a demonstrator's pit someplace. I mean, 
the idea of demonstrators sitting in a, you know, in a paved 
square under the scorching summer sun, rather than being able 
to sit on grass or under a tree, would not be very welcoming or 
inviting. And I hope that is not what is in anybody's mind.
    On the other hand, the possibility of providing improved 
amenities for demonstrators, along with others, is certainly 
not a negative thing. And I think as long as the Park Service 
and the other organizations that are involved in this effort 
are aware that this committee and Congress care very much about 
protecting the First Amendment use of the Mall, then the 
chances that we will all be on the same page at the end of the 
process will be greatly improved.
    Ms. Norton. Well, this is, this is another piece for Mr. 
Akridge's plate. If this were private, if the Mall was a 
private enterprise, having demonstrations on the Mall, just 
like having the Smithsonian like that would be a cost of doing 
business. So to say to the American people we can't have your 
demonstrations and protests on the Mall because we don't have 
the money raises very, very, it seems to me, very serious 
issues.
    But they do have maintenance problems when people use the 
Mall. And when we talk about backlog, we are really talking 
about extra funds so that when damage occurs, it can be 
repaired without saying to the American people, I am sorry, you 
can't go on the grass.
    Ms. Feldman, I just want to thank you publicly for your 
extraordinary, visionary work on the Mall when nobody was 
listening. You and I would have meeting after meeting. The Park 
Service wasn't activated and there was no one else, but you and 
your commission were active and have been wonderfully, it seems 
to me, imaginative in all of this, and I just wanted to clarify 
a couple of parts of your testimony. The Chairman has had 
beforehand all of the agencies involved in planning, but there 
is a part of your testimony that talks about multiple 
jurisdictions in the west. I wouldn't let them off that easy, 
Ms. Feldman.
    There is no question that this is an important hearing. The 
Chairman was able to call beforehand everyone. I can't think of 
any other committee that either would do that, or would have 
the jurisdiction to do that. And the notion about the 
Smithsonian and the National Gallery, I can say to you without 
fear of contradiction that the Smithsonian could care less 
about the Mall. They have a far greater backlog, maintenance 
backlog, than the Park Service. Thus, I do not believe that the 
National Gallery of Art or the rest of them tend to the Mall, 
have an interest in the Mall.
    I now regard this as a jurisdictional matter. I believe 
this committee has the authority it seems to take the authority 
to do what it can to move this matter. Maybe in some world 
where Congress does not live, you know, you could put 
everything under a Czar and get things done, wearing the 
frustrations out from being in the Congress is had the monk 
work with the beast.
    And this is the beast. And I think this beast is far easier 
to handle than the ones I have seen on other committees, where 
indeed the multiple-jurisdiction committees fight for 
jurisdiction. The problem I have had is that nobody has been 
fighting for this jurisdiction.
    I would like to ask you, though, about forcing people off 
the Mall, and the Mall is not a finished work. Because I think 
we are playing with words here.
    Is it not the case that when the Mall was declared by 
somebody, it may have been NCPC, to be a finished work of art, 
they were really talking about every Tom, Dick, and Harry 
wanting his own memorial on the strip between the Capitol and 
the Lincoln Memorial. And it got so overcrowded and so 
unmanageable that they, on their own, went to other places, and 
have had some success in going to other places around the Mall.
    As I understood it, you were for an expanded space. You 
were for these spaces other than on that strip. So I wasn't 
sure what you meant by forcing people off the Mall, or that the 
Mall is not a finished work of art. It seems to me that you are 
playing on words there, because I don't believe they meant to 
say that you don't, you don't have an evolving kind of 
masterpiece here. It just means that, it seemed to me, that you 
were destroying the masterpiece by having to fight off every 
small and large memorial that came along.
    So I would like you to clarify what you had in mind.
    Ms. Feldman. First of all, I think that what has come out 
today is that everyone understands that the Mall needs a lot of 
work, and it is going to need some financing, whether it is 
government or private. We all support the notion of raising 
funding to improve the infrastructure, the monuments and 
memorials. That is all very important.
    Our issue has to do with something other than Mall 
management and maintenance. What we are trying to get at is the 
concept of a vision. When NCPC came up with the notion that the 
Mall was completed, absolutely, and then Congress went along, 
the notion was we have run out of space for new memorials and 
museums.
    And what is happening, and what has been happening for the 
past several years, is we are actually locating new monuments 
on existing monumental grounds. That happened with the Vietnam 
Veterans Memorial Visitors Center, which is going to go 
actually on the Lincoln Memorial grounds, and now the African-
American History Museum is going to go on part of the 
Washington Monument grounds.
    So we are starting to build on top of already-dedicated 
zones. We support that notion that the Mall, the existing Mall, 
can't take on more memorials that take over the public open 
space, which was the original purpose of the Mall. That is why 
we support expansion, as you have proposed.
    Expansion, however, is not a question of real estate, of 
not just identifying new real estate where new monuments can 
go. The Mall concept is one of the public promenade, going back 
to 1791, the expression of this open space as the we, the 
people, place between the Executive and the White House, and 
the Legislative and the Capitol. It is the symbolic quality of 
it that requires more than a real estate approach, or a 
prohibition, or limitations, or a management plan.
    We don't argue that all of these other plans are absolutely 
important, including the Center City agenda. But what we need 
now is a way to reconnect the National Mall, which has become a 
Federal enclave, to the lively city around it, and which really 
depends on the Mall becoming something other than a tourist 
venue.
    It really means something, and this is something that we 
have uncovered. The Park Service has a mandate, through the 
Organic Act, to preserve natural resources. The problem with 
the Mall is it was intended as a lively urban park. So we had, 
in essence, contrasting priorities----
    Mr. Grijalva. We are going to have to wrap this part of it 
up. And we have one additional set of questions from Mr. 
Inslee, and I apologize for that. And then we are running 
against some schedule deadlines for not only myself, but other 
members.
    Mr. Inslee, do you have any questions?
    Mr. Inslee. Yes, thank you, Mr. Chair. A concern I have is 
to the extent sort of our generation is using up the Mall, 
every generation, you know, throughout American history is 
going to have some claim on the Mall.
    I had a concern that our generation was claiming it a lot 
more rapidly than other generations. And it is an end-use 
finite real estate.
    I am just asking for comments how we should figure out how 
much claim each generation should have on the Mall, and how do 
we decide that. I don't want our, the Baby Boomer generation, 
to be seen as being overly greedy about this precious real 
estate.
    Ms. Feldman. Well, I would just say that that is exactly 
how we came about the notion of a National Mall Commission.
    If we have people like historians like David McCullough, or 
if we have college presidents that are used to dealing with 
divided management and fractious points of view; if we could 
get big thinkers, real creative minds to help us answer these 
questions. Then instead of saying, the way we do now, that 
whoever has the money and the political power to get a monument 
on the Mall gets one, a bigger question is what belongs there, 
and how we can make it a better place.
    But that, I think we need help to do that.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. And before I wrap, thank all the 
panelists and excuse myself, and apologize for interrupting 
mid-sentence or mid-paragraph, I don't know where I 
interrupted.
    You know, sometimes when I vote on the Floor, I feel like I 
am in a demonstrators' pit, but that is another story.
    [Laughter.]
    Mr. Grijalva. I wanted to say the 50-year plan is probably, 
for our national identity for the Mall, one of the most 
important undertakings that this Congress and this nation has 
in front of them. And I think the issue, as I saw it today, is 
how do you integrate the vitality of city residents with the 
need to promote that national identity for visitors and 
tourists, as well.
    And I think that can be done, but it can be done with 
transparency, with inclusion, and with the eye toward this 
being a lasting memorial. And also redefining what we mean by 
Mall, and defining what was appropriate for that Mall.
    Those are difficult questions. And I think the National 
Park Service has an undertaking in front of them that is very, 
very serious. And certainly this committee will not only 
monitor, but, thanks to the Congresswoman, provide additional 
oversight as that process begins. And one of the oversight 
issues is the inclusion issue. And I want to thank this last 
panel for making that a very important part of this hearing.
    And with that, let me adjourn the meeting. Thank you.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
